<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 5
                         U.S. CORPS OF ENGINEERS
                          BUREAU OF RECLAMATION



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ________

         Printed for the use of the Committee on Appropriations











                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2013

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 5

                         U.S. CORPS OF ENGINEERS

                          BUREAU OF RECLAMATION



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 78-588                     WASHINGTON : 2013






                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\          NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\            MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia                PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                 NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                       ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama            JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri               JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                     ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho              DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas            MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida                LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                 SAM FARR, California
 JOHN R. CARTER, Texas                  JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana            CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California                STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                     SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio             BARBARA LEE, California
 TOM COLE, Oklahoma                     ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                    MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida             BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania          
 STEVE AUSTRIA, Ohio                    
 CYNTHIA M. LUMMIS, Wyoming             
 TOM GRAVES, Georgia
 KEVIN YODER, Kansas
 STEVE WOMACK, Arkansas
 ALAN NUNNELEE, Mississippi
   
 ----------
 /1/ Chairman Emeritus              

               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2013

                              ----------                              

                                          Wednesday, March 7, 2012.

           DEPARTMENT OF ENERGY--U.S. ARMY CORPS OF ENGINEERS

                               WITNESSES

JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE ARMY FOR CIVIL WORKS, U.S. 
    ARMY CORPS OF ENGINEERS
MAJOR GENERAL MERDITH ``BO'' TEMPLE, CHIEF OF ENGINEERS (ACTING), U.S. 
    ARMY CORPS OF ENGINEERS
    Mr. Frelinghuysen. Good afternoon. I would like to call the 
hearing to order and I apologize to everybody for the lateness 
of our convening.
    Our discussion today will be on the fiscal year 2013 budget 
request for the Civil Works Program of the U.S. Army Corps of 
Engineers. I would like to welcome our witnesses: Assistant 
Secretary of the Army for Civil Works Jo-Ellen Darcy and Acting 
Chief of Engineers Major General Bo Temple.
    General, this will be your first appearance before this 
subcommittee in your capacity as the acting commanding general 
of the Corps of Engineers. Of course, you have been here on 
many other occasions.
    General Temple. Yes, sir.
    Mr. Frelinghuysen. I understand or we understand that you 
will be retiring later this year after more than 37 years of 
service. You have had a long and impressive tenure both 
domestically and internationally and we would like to 
personally thank you for your service to our Nation both here 
at home and on many occasions abroad and particularly during 
wartime and may I echo those sentiments to all of you in 
uniform for your service at home and abroad and I know in an 
area of multiple deployments that the engineers are a very 
critical part of a lot of what we do. Often, people are not 
aware of all the underpinnings that it takes to get from point 
A to point B and the Corps has done a remarkable job over the 
years and may I say your civilian counterparts have also put 
their lives at risk and there have been many hundreds, probably 
thousands that have done that certainly for many, many decades, 
but particularly in these rough times, we want to acknowledge 
first and foremost that particular service, and I think I speak 
on behalf on the entire committee.
    Unfortunately, despite my compliments, both you, General, 
and Secretary Darcy will be on the receiving end of some of the 
frustration on our part today that the administration is once 
again to my mind avoiding some of the tough choices necessary 
to provide adequate resources for your critical missions. 
Perhaps, may I say, assuming that Congress will do it instead, 
and oftentimes we step up to the plate, while the same process 
happens year after year, administration after administration, 
the disconnect between annual funding levels and the budget 
request level makes it a challenging job even more so for the 
military and civilian professionals, and I add the extra 
emphasis, professionals of the Corps who serve the interest of 
our Nation so well.
    And this has, indeed, been a challenging year for the 
Nation and for the Corps. The floods of 2011 devastated large 
swaths of the Midwest, South, and Northeast, and there was loss 
of life and considerable property damage. The Corps had to make 
some tough decisions, decisions that at times were very 
controversial. This committee worked hard to ensure that you 
had the necessary resources to protect public safety and guard 
against future floods. I hope and we expect and we expect today 
you will be able to give us an update on how these efforts are 
proceeding, but on behalf of many members of Congress who 
benefit from your work, again, I would like to thank you for 
the work that you do under some pretty extraordinary 
circumstances and sometimes the decisions are not easy, they 
are controversial, they are maddening because they are based on 
your best professional recommendations.
    As you know, I firmly believe that the projects and 
activities of the Corps of Engineers are necessary for a robust 
and thriving economy. The administration, to my mind, has 
grossly underfunded you again this year. The request before us 
undermines even to some our great concerns to end safety 
programs, which are incredibly important. However financially 
limited we find ourselves each year, we must find the right 
balance of investments into our most critical infrastructure 
needs, with an eye towards those that protect our Nation, 
support and improve our economy, and, yes, provide jobs. 
Congress partially addressed this problem last year by 
providing $429 million of additional non-emergency resources to 
fill holes that the administration created in such critical 
programs as dredging and flood control.
    We also directed you to report back precisely on which 
projects you would prioritize for funding and why. And now, at 
times, it appears the Corps refuses to provide us with the 
transparency we need to know on how it makes its funding 
decisions. This is, to my mind, a disregard of congressional 
direction and is quite honestly not acceptable. If we are going 
to have any confidence that the right balance of investments 
are being achieved, the administration just should stop making 
decisions without providing, I think, adequate and full 
rationale.
    Again, I would like to welcome our witnesses to the 
subcommittee. Secretary Darcy, please ensure that the hearing 
record, questions for the record, and any supporting 
information requested by the subcommittee are delivered in 
final form to us no later than four weeks from the time you 
receive them. Members who have additional questions for the 
record will have until the close of business tomorrow to 
provide them to the subcommittee office.
    With that, I will turn to Mr. Pastor for any opening 
comments he may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Pastor. Mr. Chairman, I just want to inform the people 
here that Congressman Visclosky is not present as ranking 
member because of a death in his family. And that being the 
case, Mr. Chairman, I will ask unanimous consent to submit his 
statement for the record, and I thank all of you for being here 
and I look forward to hearing your testimony.
    Mr. Frelinghuysen. Okay, thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Frelinghuysen. Secretary Darcy, welcome. Thank you very 
much for being here.
    Ms. Darcy. Thank you, Mr. Chairman and distinguished 
Members of the Subcommittee. Thank you for the opportunity 
today to present the President's Fiscal Year 2013 Budget for 
the Civil Works Program on the Army Corps of Engineers. I am 
Jo-Ellen Darcy, Assistant Secretary----
    Mr. Frelinghuysen. Madam Secretary, if you could move maybe 
the mic----
    Ms. Darcy. Closer.
    Mr. Frelinghuysen [continuing]. A little closer to you.
    Ms. Darcy. Okay.
    Mr. Frelinghuysen. And maybe move it down.
    Ms. Darcy. Down.
    Mr. Frelinghuysen. A little bit.
    Ms. Darcy. Is that better?
    Mr. Frelinghuysen. Great, thank you.
    Ms. Darcy. I would like to summarize remarks and ask that 
my complete statement be included in the record.
    Mr. Frelinghuysen. Consider it done. Thank you.
    Ms. Darcy. The 2013 budget for the Civil Works Program 
reflects the Administration's priorities through targeted 
investments in the Nation's water resources infrastructure, 
including dams and levees to address flood risks, navigation 
investments, and support of both domestic and global trade, 
restoration of major ecosystems affected by past water 
resources development and support of Administration initiatives 
such as America's Great Outdoors and the Clean Water Framework. 
The budget provides $4.7 billion for the Army Civil Works 
Program. This represents a reduction of $270 million or about 5 
percent from the 2012 enacted level, but it is a $100 million 
increase above the President's 2012 budget.
    The 2013 budget reflects a considered and effective use of 
the Nation's financial resources that will yield high economic 
and environmental returns and address significant risks to 
public safety. The 2013 budget focuses on investments in the 
three main Civil Works mission areas: commercial navigation, 
flood risk management, and aquatic ecosystem restoration. These 
investments will generate American jobs, contribute to a 
stronger economy, improve reliability and efficiency of 
waterborne transportation, reduce flood risks to businesses and 
homes, and address the need to restore important aquatic 
ecosystem benefits.
    The budget also supports programs that contribute to the 
protection of the Nation's waters and wetlands, the generation 
of low-cost, renewable hydropower, the restoration of certain 
sites contaminated as a result of the Nation's early Atomic 
Weapons Development Program, emergency preparedness and 
training to respond to natural disasters, and recreation, 
environmental stewardship and water supply storage at existing 
projects owned or operated by the Corps.
    The Administration is considering proposals to serve as the 
foundation of a comprehensive water resources infrastructure 
modernization initiative which will help the Federal government 
support 21st century water resources infrastructure, manage the 
Nation's aging infrastructure, and restore aquatic ecosystem 
functions affected by past investments. In doing so, the 
Administration will continue to collaborate with Congress and 
the many stakeholders whose interests are tied to the Nation's 
water infrastructure, including states, local, and tribal 
governments.
    The budget funds a number of activities to completion, 
including 5 flood risk management projects, 3 navigation 
projects, 1 hydropower mitigation project, and 18 studies. The 
Civil Works' budget includes funding for three high-performing 
construction new starts, six study new starts, and a new 
activity in the Operation and Maintenance account to reduce the 
vulnerability of Civil Works' projects to extreme natural 
events.
    With the funding for the Floodplain Management Services 
Program, $3 million is recommended to evaluate the potential 
for, and encourage the use of, nonstructural alternatives 
during post-disaster recovery decision-making. With these 
funds, the Corps would leverage the expertise of 
intergovernmental teams known as Silver Jackets to support 
states and communities in the development and implementation of 
actions to reduce flood risks.
    The budget also includes a high level of investment in 
support of domestic and global waterborne transportation, 
especially at coastal ports that support the greatest national 
economic activity. It provides for the use of $848 million from 
the Harbor Maintenance Trust Fund to maintain our coastal 
channels and harbors. This is a 12 percent increase over the 
2012 budget and the highest amount ever budgeted for use of 
receipts in this trust fund.
    Inland waterway capital investments in the construction 
account are funded at $195 million, of which $95 million will 
be derived from the Inland Waterways Trust Fund. This is the 
amount that is affordable within the projected level of trust 
fund revenues under existing law.
    Last September, President Obama transmitted to Congress a 
proposal to modernize financing of capital investments on the 
inland waterways through establishing a new vessel-user fee to 
supplement the existing tax. The Administration will continue 
to work with Congress and stakeholders to enact a mechanism to 
increase revenues to this trust fund in order to enable a 
significant increase in funding for high-performing inland 
waterway capital investments in the future.
    The 2013 budget includes $493 million for dam and levee 
safety activities, including interim risk reduction measures 
designed to immediately mitigate risk at the highest risk dams. 
This amount includes $41 million to continue the comprehensive 
levee safety initiative to assess the conditions of Federal 
levees and help ensure that they are safe.
    The Army continues to work to modernize the Civil Works 
Planning Program. Proposed changes are aimed at dramatically 
shortening the time and the cost for completion of our 
preauthorization studies while retaining the quality of the 
analysis.
    The budget, again, includes $3 million for the Veterans 
Curation Program, which provides vocational rehabilitation and 
innovative training for wounded and disabled veterans, while 
achieving historic preservation responsibilities for our 
archeological collections that are administered by the Corps. 
The program supports work by veterans at curation laboratories 
located in Augusta, Georgia; in St. Louis, Missouri; and here 
in Washington, D.C. This program will contribute to the goals 
of the President's recently announced Veterans Job Corps.
    In summary, the 2013 budget for the Army Civil Works 
Program is a fiscally prudent, appropriate level of investment 
that will generate jobs, contribute to a stronger economy, and 
continue progress on important water resources investments that 
will yield long-term returns for the Nation and her citizens.
    Mr. Chairman and Members of the Subcommittee, I look 
forward to working with you in support of the President's 
budget and I thank you.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Frelinghuysen. Madam Secretary, thank you very much, 
and I failed to recognize that Major General Michael Walsh is 
here. Thank you for being on the dais. And Mark Mazzanti, as 
well, thank you for being here, and to all the division 
commanders, thank you for being here. Historically, you have 
been here and all of us want to share our appreciation for the 
work that you do each and every day.
    Major General Bo Temple.
    General Temple. Thank you, Mr. Chairman and Members of the 
subcommittee. I am honored to be here with Ms. Darcy to testify 
regarding the President's Fiscal Year 2013 Budget for the Civil 
Works Program, but before I begin, I would like to introduce 
the commanders present. First, Brigadier General Margaret 
Burcham from the Lakes and Rivers Division, Major General John 
Peabody, Mississippi Valley Division----
    Mr. Frelinghuysen. Ms. Emerson mentioned your name as I 
went over here. Congresswoman Emerson, yes.
    General Temple. Colonel Chris Larsen, North Atlantic 
Division; Brigadier General John McMahon from Northwest; and 
also here in the audience is Mr. Steve Cary representing our 
Research and Development Directorate. And then here to my left 
is Brigadier General Rick Stevens, Pacific Ocean Division; 
Major General Todd Semonite, South Atlantic Division. Colonel 
promotable to be Brigadier General next week is Mike Wehr from 
South Pacific Division and then Brigadier General Tom Kula from 
Southwestern Division.
    Mr. Frelinghuysen. We are honored to have them all here. It 
is good to know you brought a promotable with you.
    General Temple. Thank you, sir. And, finally, not here 
today is Major General Ken Cox, who commands our Transatlantic 
Division in Winchester that provides all of our engineer 
support to Central Command.
    The Corps is wrapping up an unprecedented period of 
construction and project execution. Over the past 5 years, we 
have provided $12 billion in BRAC-related construction, $7 
billion of American Recovery and Reinvestment Act work in our 
military and Civil Works Programs combined, and about $14 
billion of Gulf Coast recovery work.
    In 2011, over 2,000 Corps employees deployed in response to 
multiple disasters, including Midwest tornadoes and flooding in 
the Missouri, Mississippi, Ohio, and Souris River basins, and 
also throughout the Northeast due to Hurricane Irene and 
Tropical Storm Lee. The systems performed as designed, saving 
lives and preventing billions in damages. However, as you are 
aware, many projects were damaged and we are currently working 
to address these systems using $1.7 billion that Congress 
appropriated for this purpose.
    The fiscal year 2013 budget includes a $4.7 billion total 
to fund civil works activities within the Corps' three main 
water resources missions: commercial navigation, flood risk 
management, and aquatic ecosystem restoration. The budget 
includes $102 million for these and related activities in the 
Investigations account and $1 million in the Mississippi River 
and Tributaries account. It funds 81 studies and 6 new studies. 
It also includes $10 million for work on proposals to deepen 7 
U.S. ports. The budget includes $1.47 billion in the 
Construction account and $99 million in the MR&T account, 
funding 101 construction projects, including 57 flood and 
coastal storm damage reduction projects, 5 are budgeted for 
completion, 23 commercial navigation projects, 19 ecosystem 
restoration projects, and mitigation associated with 2 of our 
hydropower plants.
    The Operation and Maintenance account includes $2.53 
billion and an additional $134 million under the MR&T Program 
with a focus on the maintenance of key commercial navigation, 
flood and storm damage reduction, hydropower projects and other 
facilities. The Corps will continue to implement actions to 
improve its planning program performance through planning 
modernization efforts focusing on how we best can modernize the 
planning program to more effectively address water resources 
challenges. The Corps always strives to improve its efficiency 
and effectiveness.
    In fiscal year 2013, the Corps will further expand the 
implementation of a modern asset management program, using a 
larger portion of its funds for the most important maintenance 
work while implementing an energy sustainability program that 
pursues major efficiencies in the acquisition and operations of 
its information technology assets, as well as finalizing the 
reorganization of the Corps' acquisition workforce. The fiscal 
year 2013 budget provides $30 million for preparedness for 
floods, hurricanes, and other natural disasters, including 
about $3 million in support of Corps participation in levee 
safety and other flood mitigation initiatives, such as the 
Silver Jackets Program, to improve unified Federal assistance 
in implementing flood and coastal storm damage reduction 
solutions.
    Internationally, the Corps continues to support the mission 
to help Iraq and Afghanistan build foundations for democracy, 
freedom, and prosperity. In Iraq and Afghanistan, we completed 
or closed out hundreds of projects in support of the host 
nations and coalition forces. This critical infrastructure and 
our capacity-building efforts will play a key role in ensuring 
stability and security for these nations. The Corps remains 
committed to change that ensures an open, transparent, and 
performance-based Civil Works Program, while remaining focused 
on consistently delivering innovative, resilient, risk-informed 
solutions to the armed forces and the Nation.
    Thank you, Mr. Chairman and Members of the subcommittee. 
This concludes my statement and I am happy to answer any 
questions you may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, General Temple, on all of our 
behalf. Madame Secretary, I would like to discuss the 
administration's level of responsiveness to this committee over 
the past year. The day-to-day communication with the Corps has 
been generally fine, but anything that has needed official 
administration review has often been late or missing key 
information. The justification sheets for Fiscal Year 2013 and 
2012 budget requests were late. The questions for the record 
for last year's budget hearing were very late. When we were 
trying to ensure that the Corps would have the funding 
necessary to respond to incredibly significant flood events 
across the country, we had some difficulty getting from you the 
sort of information we needed that might relate to a possible 
supplemental.
    Of most concern to me today, however, is the work plans for 
the additional funds provided in the Fiscal Year 2012 act. Our 
conference report was clear to you that you were supposed to 
provide us with the list of allocations and the justifications 
for those specific decisions. We left all project evaluations 
and final allocations decisions up to you because we wanted to 
make sure that this was done in a professional manner and shall 
we say hands-off, although I think everybody knows members of 
Congress are touched by Corps projects each and every day and 
we count on you.
    So we simply left it up to you to inform us of those 
decisions and supporting evaluations. You should have had these 
project evaluations to provide along with a list of projects 
since, theoretically at least, you needed these evaluations in 
order to determine which projects were to receive funding. The 
lack of explanatory information makes these decisions look to 
some to be somewhat political and, I think, raises many 
questions about how the administration really makes its 
decisions. So while we are all for transparency, we basically 
need some more money.
    So the question, Madam Secretary, did the administration in 
fact follow the congressional direction to employ an objective 
evaluation for allocating these funds? If so, why did the work 
plan submission not include the project level justification 
information as we directed?
    Ms. Darcy. Congressman, thank you for the question because 
I think that we owe you an explanation. We followed the 
criteria in the Statement of Managers that was required by the 
bill for us to consider. When we were placing that $507 million 
in those 26 different allocations, we did follow the intent of 
the Statement of Managers. However, when we were preparing the 
work plan with the goal to get it to you all by February 6, 
which is the date set by the Congress, we were not able to 
provide the justifications. We will have justifications for 
every project in the work plan to you two weeks from today.
    Mr. Frelinghuysen. So we will have the information, and are 
you working on a follow-up submission? And when might we expect 
that?
    Ms. Darcy. It will be within two weeks, sir, and it will 
have the projects that were funded and the justification.
    Mr. Frelinghuysen. So the format will include that? 
Anything else?
    Ms. Darcy. Just the justifications.
    Mr. Frelinghuysen. Okay, all right, thank you. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. Over the years at 
least one of the issues that I try to pay some attention to has 
been the Everglades Restoration. And one of the concerns we had 
several years ago is we had asked and probably did not receive 
many reports in terms of the progress. And many times you would 
read--the Washington Post had a number of articles on the 
Everglades--that there were problems, shifting priorities, et 
cetera. But I see we are still in the budget proposing 10 
percent of the entire construction back on the Everglades, and 
things have changed since we started this many years ago.
    One of the concerns that I had--and I will bring it up--I 
thought that this might become the big dig of the Corps of 
Engineers. So I was always concerned. Now what is the progress? 
I think we spent close to $2 billion for the Everglades 
Restoration and there is a likelihood that we may spend $3 
billion more. And so what is the progress to date? This has 
been going on for at least--is it four years now?
    Ms. Darcy. Do you want me to answer?
    Mr. Pastor. Oh, I do not know who answers.
    Ms. Darcy. I will answer it, sir. We have made a great deal 
of progress in the Everglades Restoration. As you know, since 
1996 there have been a number of projects that were authorized 
for restoring the Everglades, and the Water Resources 
Development Act of 2000 initiated a number of other projects 
for restoration. In these last three years we have undertaken 
seven groundbreakings on projects within the Everglades 
Restoration, including trail construction as well as the 
Kissimmee Restoration and several others including Picayune 
Strand. Many of those were funded not only within the 
President's budget, but also with ARRA dollars.
    We have made a great deal of progress. We are currently 
working with the state of Florida on one of our accelerated 
planning programs to restore the water in the Central 
Everglades, because most of the projects right now that have 
been undertaken are on the coast. What we are looking at now is 
a Central Everglades water restoration study that we hope to 
have done within 18 months.
    Mr. Pastor. When do you think you will finish the whole 
restoration? We are now $2 billion into it, and we probably 
have many more billions. There are changes in the political 
scene there in Florida. So do you have any idea when you are 
going to finish this project and how much you think it is going 
to cost? I know it is speculation, but give us the best 
ballpark.
    Ms. Darcy. It was originally called the Comprehensive of 
Everglades Restoration Program, the CERP, and it was originally 
authorized in 2000 for I believe $8.6 billion. We have not 
spent that to date. The state of Florida and the South Florida 
Water Management District are our 50-50 cost share partners in 
this project. So whatever money the Federal government puts up, 
the state of Florida puts up a matching amount of 50 percent.
    The actual completion date I do not know. I may ask General 
Semonite, the South Atlantic Division Commander, as that 
project is in his neighborhood. I do not know that we have a 
completion date.
    General Semonite. Sir, there is not a definitive date right 
now. Clearly, as the Secretary said, a phenomenal amount of 
progress has been made in the last several years. The system 
continues to evolve. We continue to learn how we can make the 
system even better to protect the environment. I think you are 
looking at something that is anywhere in the 7 to 10 years 
range. We continue to work out those programs that have already 
been agreed upon by all of the parties. Clearly it is 
contingent upon what Congress continues to do with the funding, 
and we are mainly executing the program that you to continue to 
fund.
    Mr. Pastor. One of the problems that we had in the past, 
and things may have improved, is that we would ask for reports, 
at least on a yearly basis, on progress. I am assuming that 
under the changes in leadership that you probably have seen 
them, Mr. Chairman.
    Mr. Frelinghuysen. Well, I do not want to antagonize 
anybody from Florida by saying--there is a whole issue of 
disproportionate issues. I am all for reports, but this is a 
very important environmental project. But given all the crises 
that we have had to address, the Corps has been involved with, 
it puts things into perspective. But maybe there are some other 
things that we could be looking at and perhaps directing 
resources to. But I am somewhat with you, and I am somewhat 
concerned about the disproportionate amount of money that is 
going into this project.
    Mr. Pastor. Well, in making decisions for the subcommittee 
and with the subcommittee, it is always important to have 
information that is up to date so that you can ensure that 
priorities that the subcommittee may have as it looks at the 
budget; that you are getting the information so that you can 
see where progress has been made and what the needs are in the 
future and what the timelines are. So it has always been a 
problem in getting this type of information. I was just hoping 
that you would get it.
    Mr. Frelinghuysen. I hope we will get it. If there is a 
game plan out there, let us flesh it out and get it to us. 
Maybe we do have it.
    Ms. Darcy. I will commit to you that we----
    Mr. Frelinghuysen. I worry about when the expression is 
that this thing is evolving. I mean, I worry a little bit.
    Ms. Darcy. We will provide the Congressman as well as the 
Subcommittee with any information that you request as well as 
the progress of the spending that has been done in the 
Everglades since its inception.
    Mr. Pastor. I think in many of the bills when we first 
started there was at least minimally a request that we would 
have a report on an annual basis. And so I think if that is the 
minimal request that we get those reports, I think that would 
be helpful.
    Mr. Frelinghuysen. Well, if we do not have an annual 
report, we have just instituted one. So now I am going to shift 
to----
    Ms. Darcy. I know that we provide the authorizing 
committees with a report. We should provide it to you as well.
    Mr. Pastor. Some believe authorizing committees do not 
matter.
    Mr. Frelinghuysen. We try to pay the bills and there is not 
a lot of money to do that. So Mr. Simpson, front and center.
    Mr. Simpson. Thank you, Mr. Chairman. Surprisingly, I do 
not have many questions about the Pacific Northwest in that 
they have done a great job and my office has not received any 
phone calls. So they work together very well in trying to 
repair the locks and so forth, and do the upgrades that were 
necessary on the Columbia River. And when my office does not 
receive phone calls, that is good. But there are some 
questions.
    Mitigation fish hatcheries, you have put a $500,000 
increase in your budget for mitigation fish hatcheries. It is 
about $400,000 short of what the Fish & Wildlife Services says 
it costs to operate those mitigation fish hatcheries. Have you 
been working with them, trying to come up with a number? 
Because if not, in our Interior bill we are going to have to 
fill a $400,000 hole somewhere.
    Ms. Darcy. Congressman, we have been working with them. I 
am not certain of the number that you referenced, but I will 
definitely make sure that we are. I know that we have been in 
consultation with them because we do annually include a fish 
mitigation line item in our budget, but I am not sure that we 
got it this year.
    Mr. Simpson. Okay. For something completely different, 
Cheyenne River Sioux Project. I visited the Cheyenne River 
Reservation last year, Eagle Butte. It was stunning to me that 
they are that close to the Pick Sloane Project with all that 
water available, and they cannot get water to Eagle Butte. I 
mean, they have housing developments sitting there ready to go 
to build houses on them, but they have no water supply. As I 
understand it, the new intake valve, which has been inoperable, 
was constructed by the Corps and that the Corps has agreed to 
repair it. What is the status of that project and how long do 
you expect it to take to complete?
    What they need is a new water system there. One has been 
proposed for about $65 million. Fortunately, the USDA Rural 
Development Office, the BIA, the IHS, the EPA, have all jumped 
in and we are trying to put together a plan to actually deliver 
water to the Cheyenne River Sioux. Is this something that the 
Corps can help with?
    Ms. Darcy. I assume so. I was going to ask General Temple--
I think we have been involved in it, but I am not certain.
    General Temple. Sir, I am going to have to defer to John 
McMahon here if he has anything.
    General McMahon. Mr. Simpson, I apologize. This is 
something that we talked about just the other day, and it is 
something on which we owe some more information. I propose that 
we take it for the record to plow through more thoroughly.
    Mr. Simpson. Okay. We are going to be putting together a 
briefing with all of these different agencies because it seems 
absurd to me that you have that much water that close to this 
tribe--and remember, we removed them from their native lands 
when we flooded the land down there and built Eagle Butte 
essentially for them--that we cannot get water to them is a 
crying shame and it is just not right.
    One other question for something really completely 
different, Buckingham Coal in Perry County, Ohio. Army Corps is 
suing them about using an underground tunnel that is necessary 
to access coal deposits that they own. The Army Corps brought 
suit, saying that there would be harm. The court essentially 
threw it out and said there is no harm there. Who was it? The 
Occupational Health & Safety Administration, the state of Ohio, 
have all determined that the corridor is safe and poses no 
risk. The Army Corps chose to appeal that decision even though 
the Federal Court has said that it is very unlikely even on the 
merits of their case that the Federal government will prevail. 
Who has the authority to bring that suit? Who has the authority 
to dismiss that suit? And most importantly, who pays for that 
suit?
    Ms. Darcy. Congressman, I appreciate the question. However, 
because this is in litigation, I am not allowed to discuss it.
    Mr. Simpson. I suspected that would be your answer. Will 
you meet with the Ohio delegation that has concern about this 
issue?
    Ms. Darcy. Congressman, I cannot discuss this issue.
    Mr. Simpson. Can you tell me who pays for it?
    Ms. Darcy. Who pays for the litigation?
    Mr. Simpson. Is it the Justice Fund? Is it the Army Corps 
of Engineers? Who the hell is paying for all the money that we 
are spending in court?
    Ms. Darcy. I believe it is the Department of Justice 
budget.
    Mr. Simpson. Boy, it is easy to file suit when someone else 
is paying. We have a problem here. One that needs to be solved.
    Mr. Frelinghuysen. Okay, thank you, Mr. Simpson. Mr. Olver.
    Mr. Olver. Madam Secretary, I think your staff has been 
apprised that I might ask a question about certain 
transportation articulations with port facilities. And I just 
wanted to say I served as the ranking member of the 
Transportation and HUD Committee. When I was Chairman of THUD 
until a couple of years ago, we had an ARRA bill, the American 
Recovery and Reinvestment Act and then annual appropriations 
for what has become known as the TIGER Grant Program. It has 
been very popular. It is very flexible money. And the Secretary 
of Transportation has generally looked at projects that would 
have an intermodal impact to find what funding they could.
    And I know that they have funded a number of projects over 
the years. Well, during the ARRA Act period, but also then in 
fiscal years 2010 and 2011, they had funded some of these TIGER 
projects which did have impact into important areas where they 
were intended to deal with the movement of freight and goods. 
Obviously, the transportation issue here is the efficient 
movement of goods as well as people and the intermodal aspect 
is to make certain there is a proper articulation, a good and 
effective articulation between the trucking and rail interests 
reaching a point where you want to transfer to port facilities 
and such.
    Now in the most recent of these, I understand that they 
actually did communicate, maybe for the first time with the 
Corps of Engineers, on a group of four projects which were 
finally approved. And I just want to very quickly point out one 
of them is in the Port of Jacksonville, Florida; one of them in 
Long Beach, California; one in New Orleans within the Port of 
New Orleans in the city itself; and then one in South Jersey 
that affects Camden and a couple of other smaller ports. They 
are bringing either rail or highway facilities, improving the 
rail or highway facilities or both, to where the port comes 
into play. And I am just wondering, do you have in any of these 
cases, if you have had a chance to look, do you have any sense 
of projects that are in the Corps' portfolio that do in fact 
articulate to the projects that have been awarded money and are 
in final design and should be in construction later this year, 
in those particular cases where the Corps of Engineers was 
actually consulted on the matter?
    Ms. Darcy. Congressman, you are right, this is the first 
time that the Corps of Engineers has been consulted by the 
Department of Transportation on the TIGER Grant proposals. They 
took the highly recommended projects that they had for TIGER 
Grants and we reviewed them to make sure that we were not at 
cross purposes and that indeed the landside development for 
intermodal transportation was going to be conducive to what was 
ongoing in the waterway. It was merely a consultation, not a 
recommendation.
    Mr. Olver. Not a recommendation?
    Ms. Darcy. No.
    Mr. Olver. Do you have, in any of those cases that were 
then awarded, do you have any sense that you have waterside 
projects?
    Ms. Darcy. We do have ongoing navigation and maintenance 
responsibilities in most of those water bodies that you 
discussed.
    Mr. Olver. Are they ongoing or are they a long time away in 
the project timeframe or what?
    Ms. Darcy. I think we do operation and maintenance dredging 
in most of those places now to continue the commercial 
navigation traffic.
    Mr. Olver. Do you think that it is a useful thing for us to 
have this kind of coordination and collaboration?
    Ms. Darcy. Absolutely.
    Mr. Olver. Whether it is consultation or whether it is--I 
do not know that you should have a veto over these things 
necessarily, but----
    Ms. Darcy. No, and we do not have a veto over them. What we 
do through consultation is see where the Federal dollars are 
going so that we are not investing Federal dollars in a place 
where we do not have the appropriate or the maximum 
availability of commercial navigation. If you are going to put 
money in the landside to get to commercial navigation, we need 
to be able to know that we have the channel there for the goods 
to move on.
    Mr. Olver. Well, I am just hoping that there will be more 
consultation at an early enough time and some sense of whether 
there is a connection between the timeline in which a 
transportation project and a port project would be on.
    Ms. Darcy. That is what we are trying to get to through 
this consultation. And also, last week we signed a Memorandum 
of Understanding with the Department of Transportation to 
continue this kind of consultation.
    Mr. Olver. Good. Thank you very much.
    Mr. Frelinghuysen. Mr. Olver. Mr. Rodney Alexander.
    Mr. Alexander. Thank you, sir. The first thing I want to do 
is just thank you all for the way you have responded to our 
office over the years. We appreciate that. $82 million in the 
new budget for dredging lower Mississippi. A question: Is that 
enough? And how much did you spend last year for that?
    Ms. Darcy. I know we budgeted $82 million this year. I 
think last year we budgeted $76 million. I am going to ask 
Mark. Mark is our program manager for this project.
    Mr. Frelinghuysen. Just identify yourself for the record. 
Thanks.
    Mr. Mazzanti. Mark Mazzanti, the chief of the Programs 
Integration Division. Congressman, I think our budget was $68 
million last year. I do not recall off the top of my head 
exactly the expenditure range, but it was in the $85-$90 
million range.
    Mr. Alexander. Okay. Is there a law on the books that we 
might need to change that would prohibit you from doing 
whatever is necessary to accommodate these larger ships that 
are going to be coming to us at some point when the Panama 
Canal is finished in its widening?
    Ms. Darcy. Congressman, there is not a law that is 
prohibiting us from doing any of the widening or deepening that 
is anticipated to be needed for the Post-Panamax vessels. We 
are currently doing a great deal of work to deepen several 
ports.
    Mr. Alexander. Okay, well I had understood earlier from 
somebody, it was not anybody with the Corps that told me there 
might be law that would prohibit you from doing anything that 
would not allow the deeper draft ships to come in, and I was 
just curious.
    Ms. Darcy. There is no law that I am aware of. We are 
anticipating the deep draft ships.
    Mr. Frelinghuysen. No law yet.
    Mr. Alexander. Oh, no law yet. Okay.
    General Temple. And, sir, you asked whether you thought 
that would be sufficient to meet the needs. If we do not have 
an additional requirement this year, it should be, based on 
past experience.
    Mr. Alexander. Okay. If we do not have any floods.
    General Temple. Right, sir.
    Mr. Alexander. Okay. Talk just a little bit about the 
latest certifications, flood maps, how you work with FEMA, if 
you worked well with FEMA, and exactly where we stand. There is 
just a lot of confusion down in the southern part of the 
Nation, especially in the state of Louisiana. We keep hearing 
stories continually that the flood maps may be drawn as if the 
levees do not exist, therefore, exposing a lot of people to 
insurance premiums that where the cost of that premium may be 
just left up to the imagination if that map is drawn as if the 
levees do not exist. I cannot imagine what the premiums to 
cover homeowners and businesses would be. Where do we stand? 
What can we look forward to?
    Ms. Darcy. Congressman, we are working closely with FEMA on 
their re-mapping in all of our districts. We have a Levee 
Safety Program, as I mentioned in my opening statement. We are 
working not only with FEMA for the mapping, but also with local 
levee districts. What we are trying to do is get a handle on 
what the universe is for our Levee Safety Program.
    The Corps of Engineers is responsible for about 14,000 
miles of levees in a system in the United States that is over 
100,000 miles. Many of those levees are either agricultural 
levees or have been built by other people. They are not the 
Corps' levees.
    What we are trying to do in our Levee Safety Program is not 
only assess what we have and the structures, as well as the 
functioning of the levees in our 14,000 miles, but also trying 
to get other local sponsors to give us information so we can 
help in having the information about what the safety is out 
there.
    We also have a new levee vegetation policy and a levee 
variance policy for vegetation on levees that I think will help 
a lot of people in dealing with some of the problems that we 
are encountering where some of the levees are being compromised 
because of vegetation.
    Mr. Alexander. Okay. Thank you.
    Mr. Frelinghuysen. Mr. Alexander. Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman, and thanks to our 
panel. And I will echo the remarks of my colleagues up here 
about our thanks for your service to our country. And not just 
the high brass that is here before us. There are a lot of other 
folks in uniform--captains, majors, lieutenant colonels--and I 
know those are the people actually doing the work, so I want to 
congratulate. Having spent 30 years in uniform, I realize that 
that is the case. I was one of those people.
    I have a question for a colleague of mine who is chairing 
another hearing at this hour and could not be here. I wanted to 
make sure that I get this question asked for her. But there is 
this million-ton limit or threshold that has to be met in this 
administration's budget to qualify for inland port dredging 
needs. Will you go back and work with OMB to see if that 
threshold can be adjusted downward so that these folks can get 
some desperately needed assistance in those projects?
    Ms. Darcy. Congressman, we are funding the highest--as you 
said, the metric is a million tons, but we also are funding 
some low-use navigation harbors in our budget. I want to say 
$85 million is included for low-use harbors and waterways. They 
do not compete well because they do not serve a million 
commercial tons a year. That is the metric we are currently 
using.
    As you said, we have not, as of now, had conversations with 
OMB about changing that, but the low-use navigation budget is 
one that is getting a lot of attention, and I think that, there 
may be other ways to measure.
    Mr. Womack. Well, that is low-use. What about close to a 
million, but no cigar?
    Ms. Darcy. You mean like 99?
    Mr. Womack. Like 950,000.
    Ms. Darcy. Well, I would have to defer to my navigation 
experts. I do not think it is that hard of a number, but that 
is the metric that we use.
    Mr. Womack. Well, she told me to keep asking until I got a 
good answer. I am only kidding.
    I want to go back to my district for a moment. What we 
affectionately call ``MKARNS,'' the McClellan-Kerr Navigation 
System, is without a doubt a great driver of commerce in the 
Central Arkansas region, and the center of our Nation.
    And there is no doubt that the access through that channel 
is environmentally friendly, reduces greenhouse gas emissions, 
and is very fuel efficient when compared to other 
transportation opportunities. And I know that there have been 
changes in how the Corps operates the system or there are some 
planned changes for how the Corps operates the system in the 
future.
    The statement I would like to make is, it is important for 
these changes to be implemented in a way that will minimize 
impacts to the level of service provided to the users, and to 
ensure there are no impacts to the level of service. Funding 
priorities and operational changes cannot be developed in a 
vacuum. And I know that if asked, the users of MKARNS will be 
receptive to working with the Corps to prioritize key 
maintenance items and develop new operational procedures that 
will work for both entities.
    But the question is, what is the administration doing to 
ensure the views of industry and the users of the waterway are 
incorporated into the future budget development process to 
ensure continued economic growth of this region and the Nation?
    Ms. Darcy. Well, Congressman, we are in regular contact 
with our users and our stakeholders for all of our projects. We 
have to depend on the locals and the users because we cost-
share everything, you know, so we have to be considering their 
needs as well as those of the Nation whenever we develop a 
project, whether it is an ongoing project or a new project.
    Mr. Womack. Well, there was a major meeting on this subject 
back a week ago in Fort Smith. And I am in contact with a lot 
of people, my colleagues that are my constituents there, that 
recognize the tremendous economic value of being able to 
transport at a 12-foot depth versus a 9-foot depth. And I know 
you get that. And I have spent time with our folks, in fact, 
General Kula and others, about this very subject. But in an era 
when we are looking for job creation, looking for the proper 
investment gives us a kind of return that allows business and 
industry to expand, put more and more people back to work, and 
in an era where we are trying to reduce greenhouse gas 
emissions and this sort of thing, it just makes sense that we 
have the capacity to do that.
    And I know it is costly and I know there are maintenance 
issues that go along with that. But it is fresh on our minds 
and I just want you to know for the record that we are 
interested in it.
    Then lastly in this round, recreation is obviously one of 
the top industries in our state, and I understand the Corps is 
the number one agency in the Federal government for providing 
recreational opportunities. Corps reservoirs are one of the 
reasons for this success. And because of funding constraints on 
the Corps of the Little Rock District--and kudos to Colonel 
Masset, Randy Hathaway, and his people for the Recreation 
Adjustment Plan which as I understand may become a model for 
what the Corps may implement. To minimize future reductions to 
Corps recreations facilities is the administration working to 
enhance opportunities for public-private partnerships that 
would allow other entities to operate and manage?
    Ms. Darcy. Yes, sir. We have over 850 partners at our 
recreation facilities, which means that we can leverage what we 
can do with their cooperation and their support. We have a 
great deal of volunteers who come to our facilities.
    Last year we had 1.4 million volunteer hours at our Corps 
of Engineers facilities, and that translates into about $30 
million into our program. We have partnerships at most of our 
facilities and they are growing. That is something that I think 
we need to continue to do and to leverage in order to continue 
to provide the recreational services that the Corps of 
Engineers in known for. And you are right, we have the most 
visitor days of anyone in the Federal government.
    Mr. Womack. Thank you. I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Womack. Madam Secretary, 
I do not know whether you have a resident historian here with 
the Corps, because I want to focus for a few minutes on the 
completion of the Panama Canal. I think the Panama Canal was 
constructed under our Army leadership as I remember. Correct me 
if I am wrong, anybody.
    General Temple. That is correct, sir.
    Mr. Frelinghuysen. So obviously that was one of the most 
monumental projects that we have seen in this hemisphere. And 
of course, if you will pardon the expression, drums are beating 
along the Mohawk because the canal is going to be completed 
somewhere in the near future, and everybody seems to want to be 
ready to receive that traffic. We referred to it earlier, some 
are prepared to compete, some are not ready to compete for that 
business. So up and down the East Coast and Gulf Coast, people 
are getting ready for business.
    My questions are directed. You have right now three 
distinct authorities by which you can accept funds from a non-
Federal sponsor to make progress on a Federal project in 
absence or delay of Federal funds, correct me if I am wrong: 
the accelerated, contributed, and advance funds authorities. 
Can you talk a little bit about those? Because filtering up, I 
assume, from some of your commanders are a whole lot of 
requests that appear to relate to the opening of the Panama 
Canal.
    So this is an area I would like to open for discussion. Is 
somebody prepared to talk about those authorities?
    Ms. Darcy. I can talk about it a little and I would be 
better prepared to talk about the Panama Canal. I am halfway 
through----
    Mr. Frelinghuysen. Well, you can talk about the Canal, but 
maybe talk about--I think you know what I am concerned about 
here.
    Ms. Darcy. Right, right. I am halfway through David 
McCullough's book ``The Path Between the Seas'' which is about 
the building of the Panama Canal by the Army Corps of 
Engineers.
    Mr. Frelinghuysen. I want to put a little footnote in. When 
I was over in Korea I did not realize that the Corps is given 
responsibility for projects on the Korean Peninsula. And I was 
shocked when I was in Italy once that the Army base was all 
done by the Seabees, so I did not realize that there was this 
international jurisdiction. But the floor is yours.
    Ms. Darcy. You are right about the three kinds of funds 
that we are able to accept. For contributed funds, we have to 
have a written agreement with a local sponsor and we could take 
those, but without any guarantee of repayment to a local 
sponsor. Accelerated funds are funds that can help us move a 
project forward. A local sponsor can give us funds to 
accelerate the project if the Federal funding is not at an 
equitable pace as the local funds. Advanced funds are money 
that they can give, you know, in advance of the project being 
constructed in excess of the non-federal share required.
    Mr. Frelinghuysen. Well, the bottom line is that there 
seems to be an increase--or increased interest in these 
authorities recently, whether it is due to shall we say the 
Federal budget picture or constraints or the ban on earmarks. 
What is going on here? I mean, I understand some communities 
and cities have the ability to pay, which sort of puts them in 
a better position, but then there may be other ports where 
there may be limitations due to a budget crisis. So what is 
going on here?
    Ms. Darcy. I think, Congressman, it is the fact----
    Mr. Frelinghuysen. And more importantly, what sort of 
policy do you have here? Is there a policy here or--these 
things seem to be percolating up and should we anticipate more?
    Ms. Darcy. We are seeing more, and I think part of it is 
because the Federal budget that we have is constrained and 
local sponsors want to see their project move forward.
    Mr. Frelinghuysen. Well, no, no one is--you know, we 
understand that there are some cities and communities that 
maybe could put some money forward and I am not picking on 
anybody here, but this is not a new development. We have seen a 
spike in these types of requests, have we not?
    Ms. Darcy. Yes.
    Mr. Frelinghuysen. And more importantly, what does it mean 
and how are you dealing with it? You have an array of 
professionals here who I assume it is percolating up through 
your division commanders.
    Ms. Darcy. I believe we are seeing more of them. And your 
question as to what policy we have to deal with it is that we 
are looking at those three authorities that we have--the 
advanced, the accelerated, as well as the contributed--and 
looking at each request on a project-by-project request.
    Mr. Frelinghuysen. So you are monitoring it?
    Ms. Darcy. Yes, sir.
    Mr. Frelinghuysen. And so you are looking at it. I have 
some concerns here because obviously behind this some might 
anticipate that someday when there is a better budget picture 
that somehow the Federal government might be somewhat 
obligated. I am sure you have made it clear, we will make it 
clear.
    Ms. Darcy. Yes, sir.
    Mr. Frelinghuysen. You want to have some general comments 
about this development?
    Ms. Darcy. Whether it is the contributed funds agreement or 
the project partnership agreement that would accept accelerated 
or advanced funds, there are stipulations as to what the 
Federal government's future responsibility will be for those 
projects, both from a funding and appropriations level.
    Mr. Frelinghuysen. So translating that is that you are 
taking a look at this.
    Ms. Darcy. We are going to monitor, sir.
    Mr. Frelinghuysen. Yeah. You do not have any reservations 
to date about----
    Ms. Darcy. Not to date, sir.
    Mr. Frelinghuysen. Okay. Mr. Pastor.
    Mr. Pastor. Mr. Chairman, I do not have a question. I just 
wanted to tell the general and the secretary that it has been 
my experience at the Los Angeles office that it is very 
responsive and they are advocates for the people they serve 
under their jurisdiction. And I compliment you on their success 
and I want to show my appreciation to them because they are 
good advocates. And I congratulate you for having such fine 
civil servants in the L.A. office.
    Ms. Darcy. We also got a really energetic colonel in that 
district right now, Colonel Toy.
    Mr. Pastor. You have had energetic colonels through the 
history of my dealing with the Corps, but, yes, he is very 
energetic. But he equals the enthusiasm and the confidence that 
you have had in the past, but I congratulate you for both the 
military side and the civilian side because they are very 
responsive.
    Ms. Darcy. Thank you.
    Mr. Frelinghuysen. All Corps employees, uniform and 
civilian, are energized, are they not?
    Ms. Darcy. Yes, sir.
    General Temple. Yes, sir.
    Mr. Frelinghuysen. Emergency supplemental funding. Madam 
Secretary, Congress provided about $1.7 billion and I would say 
some pretty scarce emergency supplemental funding to address 
some devastating flood situations, especially to rebuild the 
flood protection system in certain areas to make sure we never, 
hopefully, would not be able to deal with in the future. Can 
you bring the committee up to date on the progress you have 
made and how do you actually prioritize the funding that we 
have given you?
    Ms. Darcy. Yes, sir. Of the $1.7 billion, we prioritize by 
life safety first. We also are wanting to bring projects that 
were damaged by the floods back to pre-flood conditions, 
hopefully, as soon as possible before the next flood season. 
That $1.7 billion covers almost all of the damages that we 
suffered. There is another small amount of project damage that 
cannot be covered by those appropriations because they can only 
be used in presidentially declared disaster areas and we have a 
small amount of damages that were not presidentially declared 
disaster areas. We will go into our existing funding to try to 
make those repairs.
    Mr. Frelinghuysen. Is there an allocation list or is it 
informal? What sort of a list do we have here?
    Ms. Darcy. We have a tiered list, you know, about what the 
priorities should be. I do not have that list with me, but it 
is something we can provide the committee.
    Mr. Frelinghuysen. If we could get that list for the 
record. I know there is one floating around out there, but if 
we can get one for the record.
    Ms. Darcy. Yes, sir.
    Mr. Frelinghuysen. It has gotten awfully quiet in here. I 
am not sure whether that is the signal that I ought to close it 
down.
    I do have some questions. Your request has proposed a total 
of 10 new starts, correct me if I am wrong: 6 studies, 3 
construction projects, 1 operation and maintenance program. 
Seven of these new starts are environmental. With the exception 
of one study, all proposed new starts have been proposed in 
earlier budgets as well, so some of them we have seen before. 
Tell us about some of these and particularly about this Water 
Resources Priority Study that you have here. What is that? Two 
million dollars. Anybody have any familiarity with that?
    Ms. Darcy. I was going to defer to Mark on that one. No?
    Mr. Frelinghuysen. Mark looks like he is not ready to be 
deferred to. [Laughter.]
    Ms. Darcy. Oh, sorry.
    Mr. Frelinghuysen. We could always go on to the Inland 
Waterways Trust Fund, but, Mark, you have any reaction or what 
here?
    Mr. Mazzanti. To----
    Mr. Frelinghuysen. Are you familiar with these new starts? 
You understand that the committee on a bipartisan basis is not 
particularly enthusiastic about new starts.
    Mr. Mazzanti. Yes, Congressman. We are in the Corps in a 
position of executing the budget as it was proposed and we are 
prepared to initiate those once funding is provided.
    Mr. Frelinghuysen. Very safe answer. Thank you. Can you 
talk a little bit about the proposed legislation? The 
administration's budget repeats the proposal to raise 
additional funds for the Inland Waterways Trust Fund by setting 
dollar targets and giving the Secretary of the Army total 
discretion in devising and collecting fees from users to meet 
those targets. These fees would be in addition to the existing 
diesel tax, et cetera, et cetera. Can somebody comment on that?
    Ms. Darcy. I can talk about that.
    Mr. Frelinghuysen. Okay.
    Ms. Darcy. The proposal that you are referring to was 
included in the President's jobs bill that he introduced last 
year.
    Mr. Frelinghuysen. You are not giving up on it here.
    Ms. Darcy. No. And the mechanism for collecting that new 
fee is one that we are developing, with stakeholders, in order 
to determine what exactly that fee should be, how it should be 
assessed, and how it should be managed. And that, as you say, 
is directed to the Secretary of the Army, so that is what we 
are going to have to develop.
    Mr. Frelinghuysen. Mr. Pastor, anything for the record?
    Mr. Pastor. No, sir. Thank you very much.
    Mr. Frelinghuysen. It is your lucky day. General Walsh, 
Madam Secretary, General Temple, Mr. Mazzanti, thank you very 
much for being here, and to all those behind you who support 
you.
    General Temple, Godspeed to you. Thank you for your 
service.
    General Temple. Thank you.
    Ms. Darcy. Thank you.
    Mr. Frelinghuysen. We stand adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, March 28, 2012.

                         BUREAU OF RECLAMATION

                               WITNESSES

MICHAEL CONNOR, COMMISSIONER, BUREAU OF RECLAMATION
ROBERT WOLF, DIRECTOR, PROGRAM AND BUDGET
    Mr. Frelinghuysen. The meeting will come to order. Good 
morning.
    Our hearing today is on the fiscal year 2013 budget request 
for the Bureau of Reclamation. I would like to welcome our 
witness, Michael Connor, Commissioner of Reclamation, back to 
the subcommittee.
    Mr. Commissioner, your Bureau's mission clearly states your 
primary responsibility is to meet the water demands of the West 
while protecting the environment and the public's investment in 
these structures. Water and power remain fundamental to the 
economy of the Western United States, and the Bureau of 
Reclamation's activities are critical in meeting those needs.
    You are, in fact, if I am correct, the largest wholesale 
provider of water in the Nation, isn't that correct?
    Mr. Connor. That is correct.
    Mr. Frelinghuysen. While your investments in water supply, 
delivery, and power are growing more important as population 
expands in the West, the age of our infrastructure is also 
increasing. You must find the proper balance between making new 
investments and maintaining the critical infrastructure you 
already have, a balance which your budget request tries to 
strike.
    Last year, we talked about another balance, that between 
your economic development and environmental restoration 
activities. I regret that this budget request raises even more 
questions than it answers. While your overall request for fish 
and wildlife management programs does not increase this year, 
you do not adequately explain the long-term implications of 
these proposed investments. In the world of flat budgets, I 
worry that the potential growth of these environmental projects 
may significantly eat into your ability to accomplish your 
primary mission, which is to meet the water demands of the 
West.
    Mr. Connor, please ensure that the hearing record, 
questions for the record, and any supporting information 
requested by the subcommittee are delivered in final form to us 
no later than 4 weeks from the time you receive them. Members 
who have additional questions for the record will have until 
the close of business tomorrow to provide them to the 
subcommittee office.
    With that, I turn to Mr. Visclosky, for any opening 
comments he may wish to give.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Visclosky. Thank you, Mr. Chairman.
    Commissioner, welcome. I look forward to your testimony and 
thank you for joining us.
    The Bureau of Reclamation is responsible for providing 
agricultural, municipal, and industrial water supply in the 
West. Economies, ecosystems, and communities all rely on the 
availability of clean water. At a time when demand is 
increasing and many regions have been hit by extended drought, 
the Bureau is increasingly being asked to provide solutions to 
the western water needs while being good stewards of our 
natural resources. I hope to hear today how the fiscal year 
2013 budget request reflects this responsibility, with reduced 
financial resources.
    Reclamation's budget request for Water and Related 
Resources represents a 4 percent reduction from current year 
levels; and while we are all interested in finding appropriate 
places to cut, I have concerns, though, that this reduced 
request continues to disinvest in the Nation's water resource 
infrastructure. Therefore, it will be especially important that 
the subcommittee understands the specific methodology used to 
arrive at the Bureau's particular set of projects.
    Additionally, much of the Bureau's infrastructure was built 
nearly a century ago. In fact, over half of the Bureau's dams 
are more than 6 years old. It is critical that Reclamation 
maintains this aging infrastructure; and, again, I hope today 
to explore how the budget request provides funding levels that 
meet the Bureau's responsibility to keep Americans safe while 
maintaining its dams in proper working order.
    Reclamation plays a vital role in delivering water to 
tribes and rural communities that could not otherwise access 
clean water, and I appreciate that the administration's budget 
request attempts to continue to meet the Nation's obligation 
under the Indian Water Rights Settlements.
    We are all interested in ensuring that every dollar is 
spent effectively and efficiently, and I do look forward to 
your testimony today.
    Mr. Chairman, thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Mr. Connor, good morning. Thank you for being with us. And 
you are joined--will you introduce your colleague, Mr. Wolf, 
and what he does for you?
    Mr. Connor. Absolutely. With me is Bob Wolf, our Director 
of Program and Budget at the Bureau of Reclamation, and the 
fount of all knowledge that I will try to impart to you, and, 
if not, he is here to really give it to you.
    Mr. Frelinghuysen. Well, we welcome you both. Thank you for 
being here.
    Mr. Connor. Thank you very much.
    Thank you, Mr. Chairman, and thank you, Mr. Visclosky, for 
the opportunity to discuss Reclamation's fiscal year 2013 
budget request.
    The overall request for Reclamation is $1 billion, and I 
have submitted detailed testimony for the record.
    The budget reflects a comprehensive set of actions and 
initiatives that support Reclamation's mission and hundreds of 
thousands of jobs in the Western United States. Reclamation is 
employing an all-of-the-above strategy in the area of water 
resources. Certainty and sustainability, our primary goals with 
respect to the use of water resources, require Reclamation to 
take action on many fronts, and our budget proposal was 
developed with that in mind.
    In order to help meet the water and energy needs of the 
21st century, we must continue to maintain and improve existing 
infrastructure, develop new infrastructure, conserve and make 
more efficient use of limited water resources, protect the 
environment, better understand and plan for future challenges, 
and help clarify the relative rights to the use of water.
    I will briefly summarize areas of particular interest.
    Infrastructure. Overall, the budget supports a need to 
maintain our infrastructure in safe operating condition. 
Approximately 52 percent of the Water and Related Resources 
account is dedicated to OM&R, Operation, Maintenance, and 
Rehabilitation activities, with 48 percent allocated for 
Resource Management and Development. OM&R includes the Dam 
Safety program, Site Security program, and RAX, shorthand for 
Replacements, Additions, and Extraordinary Maintenance.
    With respect to the RAX item, specific funding is included 
for Reclamation-wide aging infrastructure needs using recently 
enacted Reclamation authorities such as the Extraordinary 
Maintenance Loan Program in Public Law 111-11.
    A second priority area is WaterSMART. WaterSMART 
concentrates on expanding and stretching limited water supplies 
to reduce conflict, facilitate solutions to complex water 
issues, and meet the growing needs of municipalities, domestic 
energy development, the environment, and agriculture.
    We have established a priority goal to facilitate an 
increase in available water supply of 730,000 acre feet 
cumulatively by the end of 2013 through WaterSMART and related 
programs. The priority goal was first established in 2010, and 
in its initial 2 years Reclamation has facilitated an 
additional 488,000 acre feet of water supply in the West. In 
2013, Reclamation proposes to fund the various WaterSMART 
programs at $54 million.
    Ecosystem Restoration is a third priority area. In order to 
meet Reclamation's mission goals--and I think this responds to 
one of the concerns you raised in your opening statement. In 
order to meet Reclamation's mission goals of producing power 
and delivering water in a sustainable manner, we must continue 
to focus on the protection and restoration of the aquatic and 
riparian environments affected by our projects. Specifically, 
the 2013 request provides substantial funding for a number of 
restoration programs in California, including the Central 
Valley Project Improvement Act, San Joaquin River restoration, 
Trinity River restoration, and Bay-Delta initiative.
    A number of our ESA Recovery and Compliance programs have 
received specific authorization from Congress and enjoy broad 
support from diverse interests. These include the Lower 
Colorado Multi-Species Conservation Program, the Platte River 
Recovery Program, the Upper Colorado and San Juan River 
Endangered Fish Recovery Programs, and the Middle Rio Grande 
Collaborative Program.
    Funding is also being provided in the budget to support the 
Klamath Basin Restoration Agreement, using existing 
authorities, and the Yakima River Basin Water Enhancement 
Program.
    A fourth area is Cooperative Landscape Conservation, which 
is a departmental initiative in which Reclamation is actively 
engaged. We are developing and implementing a plan to 
understand and effectively adapt to the array of challenges 
facing Western water management. The Basin Studies Program, in 
particular, is part of Interior's Integrated Strategy to 
respond to the impacts of climate change and other threats to 
resources managed by the Department.
    Reclamation's Science and Technology Program is also 
devoting substantial resources to support Interior's Climate 
Science Centers and to provide basic scientific information 
that supports broad-scale conservation efforts.
    Fifth, to support the Department's New Energy Frontier 
Initiative, the 2013 budget allocates funding to support 
Reclamation-wide renewable energy initiatives and to 
collaborate with other entities on renewable energy 
integration. The funds will be used to continue our efforts in 
exploring how renewable energy technologies, both hydro and 
non-hydro, can be added to and integrated with Reclamation 
projects.
    A year ago, Reclamation issued a report identifying 225 
megawatts of potential hydropower capacity that could be 
developed at existing Reclamation facilities. Since the release 
of that report in March, 2011, there have been 10 projects 
initiated under our lease of power privilege process and 18 
FERC applications filed. We plan on releasing a second report 
within the next couple of weeks assessing the low-head 
hydropower potential for Reclamation canals. This will likely 
identify over another 100 megawatts of capacity possibility.
    Overall, the Renewable Energy Program is very active and 
will support efforts to add capacity to meet the Nation's 
electricity needs.
    Sixth, and finally, Reclamation has a long-standing 
commitment to the Secretary's goal of strengthening Tribal 
Nations. The 2013 budget supports this goal through a number of 
activities and projects, including Fisheries Restoration, Rural 
Water Projects, and implementation of Water Rights Settlements.
    With respect to settlements, the budget includes funding 
towards four settlements authorized by the Claims Resolution 
Act of 2010, as well as the Navajo San Juan River Settlement 
authorized in 2009 and other previously enacted settlements.
    Reclamation's goals in implementing settlements are to, 
one, help tribes realize settlement benefits as quickly as 
possible; two, ensure certainty in the use of water for tribes 
and their non-Indian neighbors; and, three, promote economic 
prosperity in Indian country in both the short and the long 
term.
    Mr. Chairman, we appreciate the continued support of this 
committee that you have provided to the Bureau of Reclamation. 
That completes my statement, and I am happy to answer 
questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Frelinghuysen. I don't want to call any attention to 
the fact that we don't have so many members here this morning, 
but I can tell you that when I did mention to some of my 
Western colleagues that you were here they have a keen interest 
in what you do. We, of course, as a committee have a keen 
interest in terms of your responsibilities. So we speak on 
their behalf. And, as they are available--there are like 10 or 
12 simultaneous committee meetings going on with ours here--
hopefully, they will come in and be able to direct some 
questions specifically to their State's needs.
    But we certainly want to highlight the importance of your 
work. You have responsibility for a lot of people in your--
shall we say, under your umbrella, right?
    Mr. Connor. Yes, in our service area in the West. 
Absolutely.
    Mr. Frelinghuysen. As I mentioned in my opening statement, 
I believe we should be focusing limited funding on those 
activities that are most likely to have economic benefits and 
that will do the most to support our economy and job growth.
    Commissioner, can you give us more detail on how 
Reclamation prioritizes your many demands for funding and to 
what extent your budget request takes into consideration the 
economic impacts of the activities to be funded?
    Mr. Connor. Certainly. Let me give kind of an overview real 
quick about how we look at the economic activity that we 
support.
    I would say, overall, we look at our role as twofold. We 
sustain existing jobs. Those economies that are built up around 
our projects and the investments that we make in infrastructure 
obviously help to create jobs and immediate economic activity 
with large construction projects, and we still have a strong 
role at that.
    In that first area of sustaining economic activity, that is 
certainly one of the priorities that we take into account.
    Mr. Frelinghuysen. That is a historic responsibility, isn't 
it?
    Mr. Connor. I believe so. And I look at two areas. Aging of 
our infrastructure needs, obviously, are part and parcel of 
what we need to do to sustain the economic activity; and we 
have an array of programs through dam safety, through site 
security, through our rehabilitation improvement programs where 
we continually inspect, work with our partners, identify needs 
that are out there, assess risks, particularly in the Dam 
Safety program. We have a pretty involved risk assessment 
process. And we make the investments that we think are needed; 
and, of course, we make some tough decisions every year about 
what we might do this year versus what we think we can delay 
until next year.
    So infrastructure needs, I think, surface to the priority 
when we are putting together our budget.
    Mr. Frelinghuysen. Are they your top priority?
    The issue, obviously, we are driving towards, there is some 
concern you have been migrating into, shall we say, some areas 
that have an unenvironmental-like perspective, and each one of 
those may have some individual justification, but there is some 
concern that you have left your historical base where there are 
some acute infrastructure needs and costs and that you are 
going off into other areas.
    Mr. Connor. Well, I guess my perspective on that is that 
infrastructure is certainly one of the top priorities, and I 
look at it as probably one of the top two priorities. The other 
one is with respect to how do we sustain these operations that 
we need to do. Irrespective of the infrastructure is in great 
shape, we have an impact on certain resources; and that is 
where I think what you see is a transition to environmental 
restoration work. I look at it as part and parcel and integral 
to our overall mission.
    Mr. Frelinghuysen. Well, let's say they are, and some of 
these have been initiated, but some of them are pretty costly.
    Mr. Connor. Yes.
    Mr. Frelinghuysen. And one of our concerns is that, as the 
staff looks over your budget, there doesn't seem to be the 
analysis and justification for a lot of these commitments that 
go into the future.
    Mr. Connor. Well, perhaps we should----
    Mr. Frelinghuysen. Is it that open-ended? I mean----
    Mr. Connor. Oh, gosh, no. There is intense analysis on an 
annual basis.
    Mr. Frelinghuysen. But the issue is, how can we afford all 
that--once you get the camel under the tent here, how are you 
going to afford all of these projects which individually, to 
your mind and others perhaps, have considerable merit?
    Mr. Connor. Well, right now, we are keeping up with our 
obligations. We think our infrastructure is in safe condition.
    With respect to the environmental legal obligations that we 
have, we do think that we are keeping up with those programs; 
and that is the analysis that we undertake every year--What do 
we need to be doing to maintain compliance with, certainly, the 
Endangered Species Act?
    There are also a lot of State environmental laws which 
apply to our operations, and we have to make a large number of 
investments every year to ensure that we are in compliance with 
those water quality programs.
    Mr. Frelinghuysen. The committee directed you, I think, 
specifically to complete a 5-Year Plan.
    Mr. Connor. A 5-Year Plan with respect to?
    Mr. Frelinghuysen. Reclamation, where you are going in all 
of these areas.
    Mr. Connor. I am not aware of where we are with respect to 
that plan, but I will immediately----
    Mr. Frelinghuysen. I believe we directed you to do that in 
our last bill report--if we have limited funding, flat funding, 
and have initiated a lot of your historic responsibilities, 
which you put at the top of the pyramid. Have you laid out a 
game plan as to how you are going to achieve all of these other 
important missions?
    Mr. Connor. Yes, I know that in every budget cycle we work 
on that game plan; and we have identified areas that, quite 
frankly, are going to be very challenging as we get into the 
2014, 2015, 2016 environment. And some of them do have to do 
with restoration programs. Some of them have to do with other 
legal obligations that we have for developing new 
infrastructure associates. So I think we will certainly be able 
to put together that 5-Year Plan.
    Mr. Frelinghuysen. Part of this subcommittee's difficulty 
in evaluating your budget proposal and how you are prioritizing 
what you are doing is that the justifications that you give us 
do not include very much information on the total cost 
estimates or other related information on future obligations. 
That is our perspective, and I suppose what we are trying to do 
today is get from you a commitment to work with us to refine 
your budget justification to include what we think to be pretty 
useful information.
    Mr. Connor. Yes. Absolutely. You have that commitment. And 
I can tell you off the top of my head, we have identified over 
the next 10- to 20-year periods, about $6 billion in needs.
    Mr. Frelinghuysen. We will take 5 years, but if you want to 
give us a 20-year perspective we will be happy to have that.
    Mr. Connor. Well, we will definitely give you the 5, and I 
will probably try and paint a larger picture.
    Mr. Frelinghuysen. As I remember, I thought we had 
something in there giving you some direction, sort of a game 
plan for the next 5 years.
    Mr. Connor. I consider this discussion here a direction.
    Mr. Frelinghuysen. Okay, good.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Commissioner, I have supported funding to meet the 
government's obligation to provide clean water to tribes and 
rural populations--I talked about it in my opening remarks--and 
appreciate that the budget request includes $69.6 million for 
this purpose, which is a $4.5 million increase over the current 
year level, but would note that half of the funding goes to 
complete a project. I'm not necessarily complaining that you 
are completing a project, just making the note.
    Beyond finishing the last authorized increment of the Mni 
Wiconi Project, can you give us an update on the status of all 
the other currently authorized projects and what is your 
backlog for the unfunded activities?
    Mr. Connor. The unfunded activities with respect to our 
Rural Water program--overall of that $6 billion figure that I 
quoted is about $1.3 billion in backlog activities. That is as 
it exists today, in fiscal year 2012.
    Mr. Visclosky. Today.
    Mr. Connor. With respect to the percentage completed, I 
guess, we have that data and certainly could provide it for the 
record. I would say, quite frankly, we have seven ongoing 
authorized Rural Water projects. We are anywhere between just 
starting, like Eastern New Mexico, all the way to others that 
are about 70 percent complete.
    Mni Wiconi, as you noted, we look at the commitment made in 
this last budget cycle, fiscal year 2013, as completing our 
obligations for Mni Wiconi; and that is certainly one of our 
priorities.
    Criteria in moving forward, includes how close are we to 
completion of a project. We want to prioritize work in phases 
to get those projects complete. That is one of several 
priorities.
    Mr. Visclosky. And is Wiconi one of the seven you 
enumerated that needs to be completed?
    Mr. Connor. Yes. Yes, sir.
    Mr. Visclosky. As far as the backlog and looking at future 
funding, do you see years looking ahead--let's say 5 years--
whether the funding will be relatively steady, or will you hit 
a year or two where you will need a significant increase in 
funding relative to some of these projects?
    Mr. Connor. On the Rural Water programs, specifically?
    Mr. Visclosky. Yes.
    Mr. Connor. I would like to strive to keep the funding 
level steady. You know, it did take a dip in the fiscal year 
2012 budget. Congress had provided some additional resources, 
and so we are pretty consistent between 2012 and where we are 
in 2013, and that certainly was very helpful to the overall 
program. I think we need to try and keep that program as high 
as we can, and that is what we tried to do in the 2013 budget. 
It needs to stay there if we are going to make meaningful 
progress.
    Mr. Visclosky. You wouldn't see a spike, given the 
characteristics, of any of the other remaining seven projects 
that would necessitate some increase because of specific 
project components?
    Mr. Connor. A couple things. In other programs where we 
have certain legal obligations and compliance needs, you see 
spikes because we have got to get something done. In the Rural 
Water program, it is an authorization. It is a very needed 
program for those constituencies who have programs, who have 
been authorized. Where there is not a legal obligation, so what 
we are trying to do is keep the funding level as high as we can 
and plan out how we can complete phases.
    Now, I raise that distinction because there may be some 
time when we may look at completing a phase in a certain 
project, you know. Maybe, requiring another $10 million or 
something to that effect. Then you may see a little bit of a 
spike because we think it is important from an efficiency 
standpoint and a construction management standpoint to try and 
do that all in one block.
    Mr. Visclosky. So you are trying to balance those out. In 
this case, half the fund would go to complete it, but your 
funding level essentially remains fairly static.
    Mr. Connor. Yes, that is correct, sir.
    Mr. Visclosky. Understanding that you have essentially 
seven settlements you are working on at this point, you have 
negotiations going on relative to water rights. Any near 
completion? Any anticipation as to new settlements that will be 
achieved and new projects that will come on line that we ought 
to be aware of as far as potential costs?
    Mr. Connor. There have been two settlements that have been 
introduced in Congress. I don't know if both in the House and 
Senate, but certainly on the Senate side that I am familiar 
with, where, basically, the tribes involved and the States 
involved have reached an agreement. And now the question is 
whether the Federal Government can be supportive of those 
settlements.
    The two are Black Feet in Montana and Navajo and Hopi 
tribes in the Little Colorado River system in Arizona. Those 
are the two that I am aware of, pretty significant sized 
settlements.
    We are actively working as a Department and an 
administration on working through issues that we have with the 
legislation that has been introduced to resolve those 
settlements, so it is very active. We are trying to get to a 
point where we can be supportive.
    Those discussions are ongoing at this point in time, but 
there is a lot of activity in those areas.
    Mr. Visclosky. Okay, Commissioner, in the 2012 bill, we 
included a provision that required the Bay-Delta Conservation 
Plan Final Environmental Impact Statement to be issued no later 
than February 15th of next year. It appears that some groups in 
the Delta believe that the Federal agencies will not adequately 
analyze all alternatives, nor that the time frame allowed will 
provide for proper coordination and analysis. Would you comment 
from your perspective as far as the development of that final 
impact statement?
    Mr. Connor. That is a very aggressive timeline, but we have 
been supportive of a very aggressive timeline with respect to 
the Bay-Delta Conservation Plan because of the strong needs 
that we see in the Delta.
    I can say, though, that the deadline was also in the 
context of the need to comply with all of our legal 
obligations. So the deadline on the Bay-Delta Conservation Plan 
will not trump the need for good science analysis and 
coordination. We are moving expeditiously hand in hand with the 
State of California, and I can say from right now that is a 
very aggressive timeline from where I sit. There might need to 
be some adjustments based on where we are in the analysis.
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Visclosky. Sure.
    Mr. Frelinghuysen. Just taking the California Bay-Delta 
restoration, does it have measurable goals, milestones? You 
know, I know there is certain environmental things that you 
have to, objectives that you have to meet which are perhaps 
legal, but what about cost estimates? And does it have a 
defined endpoint?
    I ask this somewhat in the context of all of these 
environmental restoration projects. Let's have some comments on 
this particular one here. This is the Appropriations Committee. 
We sort of want to know what is the----
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Connor. Are these investments working?
    Mr. Frelinghuysen. Yes.
    Mr. Connor. Absolutely.
    Mr. Frelinghuysen. And we don't have the information, quite 
honestly, just where I am coming from is that we are lacking a 
lot of the information that we need relative to how much these 
projects are going to cost. The locals can debate whatever they 
want. But we would like to know how much they are going to cost 
in the outyears.
    Mr. Connor. Right, and we can provide additional 
information.
    Mr. Frelinghuysen. I thank the gentleman for yielding.
    Mr. Connor. We can supply you with our projections of what 
these programs are going to cost.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Connor. Then the question--I think the one you have 
asked is the one I am asking and others within the 
administration are asking. We need to better define the metrics 
and the goals and objectives of these programs so that we can 
not only articulate how much they cost but what progress we are 
making on the ground. We have done that in some cases.
    Mr. Frelinghuysen. If the gentleman will continue to yield. 
And do you have sort of an independent verification of the 
adequacy of the plans, assuming we get the information, and is 
it GAO or some sort of a peer review of what each of these 
projects is doing?
    Mr. Connor. Well, in each of the Recovery programs that we 
have got now, we are trying to move them to better metrics, 
clearer metrics; and I think when we do that, and we do that as 
part of a Science program, we do need to have peer review. That 
is part of our obligation now as we enter into scientific 
reports. So, yes.
    Getting back to Bay-Delta, I want to answer your specific 
question. We have a bunch of programs right now, the Central 
Valley Project Improvement Act, where we have got some 
statutorily defined goals and objectives. We are going back, 
and because of criticism of those programs, the way they have 
been implemented over the last decade, we are going back and 
creating a more science-based foundation for those programs 
with the idea of coming up with goals and objectives.
    The Bay Delta Conservation Plan, BDCP, that the ranking 
member raised is clearly one that, for there to be a BDCP that 
is in place, it is going to have very defined goals and 
objectives. That is the foundation for the plan.
    Mr. Frelinghuysen. I just want to make sure that the 
defined goals and objectives include fiscal estimates.
    And for the record, would you please provide, if the 
gentleman will yield, an estimated completion date for the 
Central Valley Restoration Projects, the Bay-Delta Restoration 
Project, San Joaquin River Restoration, Klamath Basin 
Restoration, Columbia River Salmon Ecosystem Restoration 
Program based on two scenarios. The committee would like a view 
of the historic levels of funding and the optimum or capability 
level funding.
    Mr. Connor. Yes. We will provide that.
    Mr. Frelinghuysen. I thank the gentleman for yielding me so 
much time.
    Mr. Visclosky. No, Mr. Chairman, just one more question. I 
realize Mr. Simpson is here as well.
    On dam safety, if you could describe to us how, with the 
aging infrastructure, the Bureau is prioritizing work on dams. 
Specifically in 2013, how much of the moneys will be going to 
Folsom and when do you think Folsom will be done? And, again, 
looking ahead, if you would, over a 5-year increment, do you 
see again an increase, a spike in the funds necessary to make 
sure that we have safe facilities here?
    Mr. Connor. Yes, with respect to Folsom, for the majority 
of the work that has been done in partnership between Bureau of 
Reclamation and the Corps of Engineers--the spike has already 
happened. For instance, this is one of the things that has led 
us to have some flexibility with respect to the Dam Safety 
program. In 2010, $50 million for Folsom; 2011, $45 million for 
Folsom; 2012, $30 million for Folsom; 2013 budget request, $15 
million for Folsom. So we are in a downward trend, although I 
would note that next year, to keep on schedule, the projection 
for Folsom is that it would ramp back up to $35 million. Then--
--
    Mr. Visclosky. In 2014.
    Mr. Connor. In 2014. Then Folsom will go 15, 2, and 1 
million to completion in the following 3 fiscal years.
    So we had a high level of investment. It has come down 
consistent with our schedule. We are not shirking our schedule. 
We are not cutting corners or anything like that. We will have 
another spike, and then it is going to go down rapidly.
    Mr. Visclosky. You will be done in fiscal year 2017.
    Mr. Connor. Yeah, we are looking at a residual $1 million 
in 2018.
    Mr. Visclosky. 2018. Okay.
    Mr. Connor. In 2018. And I think that will probably be 
cleanup, because I think the schedule we have with the Corps 
right now does have us finishing in 2017.
    Mr. Visclosky. Okay. With that spike, for example, and 
looking ahead to other dams and facilities, is there an 
anticipation that budget item by necessity is going to have to 
go up?
    Mr. Connor. Overall, based on what we know about the 
inspections and the work that we have planned out for the next 
5-plus years with respect to dam safety, we should be in a 
fairly consistent funding level. We think that the work that we 
have planned out will fit within the budget that we currently 
have.
    Mr. Visclosky. Including the $35 million?
    Mr. Connor. Yes, including the $35 million. Yeah, that is 
part of our plan.
    Mr. Visclosky. Okay.
    Mr. Connor. Now, we do have every once in a while some 
situations that occur kind of suddenly, like Red Willow in 
Nebraska. But, fortunately, with Red Willow, we are handling 
that within our plan to address the deficiencies in that dam. 
We are also fitting that within our overall budget. It was just 
one of those things that wasn't--you know, 3 years ago, it was 
not part of our 5-year plan, to be blunt. So based on the 
inspection process and things going on on the ground, we 
discovered a deficiency that needed to be addressed and needed 
to be incorporated.
    So that is part of the overall program. Yes, it is the 
ongoing construction activities, to address the needs that we 
have in rehabilitating some of these facilities, but our SEED 
program, our Inspection program of existing dams, that is going 
to stay constant, too, pretty much in the $18- to $19-million 
range so that we can continue the very rigorous review of the 
condition of these facilities.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    We are getting toward the end of our hearing schedule on 
most agencies. I am down conducting my last one in the Interior 
Sub-committee right now, but I wanted to take a second and come 
up here and actually bring up two issues with you, and, 
actually, both of them are compliments to your agency.
    First, I want to thank you for quickly resolving an issue 
in my district regarding access to public lands. My 
constituents were extremely concerned to learn recently that 
the BOR intended to close Massacre Rocks recreation area along 
the Snake River while conducting an archeological study of the 
area. Power County, the area of my district most impacted by 
the closure, is already facing a number of economic challenges 
that are out of its control, and this closure would have been 
devastating to them.
    My staff took the concerns of the county and my 
constituents to your local BOR office. Your staff was very 
responsive and decided to keep the area open while the survey 
was being conducted, and we appreciate that very much. I want 
to thank you for working with me on this issue and recognizing 
the concerns of those I represent, and I am hopeful that as the 
archeological study is conducted and the agency makes 
subsequent land-use decisions it will continue to employ a 
public process that takes into account the concerns of those 
who live and recreate along the area of the Snake River. But 
thank you for working with us to make sure that we avoided what 
would have been very damaging to the area, and we can still do 
the archeological study and get it done.
    Secondly, I also want to thank you for once again including 
funding to replace the Minidoka Spillway in your budget 
request. We have spoken many times about the importance of this 
project to the local community; and, as you know, they have 
taken a number of steps to ensure that local matching funds are 
available; and I look forward to continuing to work with you to 
see that this project is completed. Thank you for including 
that.
    Mr. Connor. Thank you.
    Mr. Simpson. So I don't have any critical questions.
    Mr. Connor. It is great working with you and your staff, 
Congressman. The Minidoka Spillway in particular was a very 
high priority for us in the last couple of cycles. We have had 
some favorable bids, but the reality is, we need to get that 
done to protect those existing uses, that 28 megawatts of 
hydropower that comes from that facility, so it has worked out 
very well.
    Mr. Simpson. Thank you.
    Thanks, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Simpson is a very valuable member of 
this committee. Whenever he can come and endorse a Federal 
agency to the extent he has, we congratulate him and 
acknowledge that you do important work. And I would think on a 
bipartisan basis, the Bureau does some good things. And, as I 
said at the beginning, I think some members wish they could be 
here, because they have a keen interest in your 
responsibilities.
    I would like to focus on that in your budget request which 
includes $7.3 million for what is called a Reclamation Aging 
Infrastructure Initiative. There don't seem to be too many 
specifics on how these funds will be used on individual 
projects. Can you tell us the reasoning for this separate line 
item?
    Mr. Connor. Yes, we have more and more seen, as I was 
mentioning in the dam safety context, those situations that 
arise pretty suddenly where we need to do major rehabilitation 
work. And we have some tools that have been authorized over the 
last couple of years with respect to the Major Rehabilitation 
Loan Program that was authorized in Public Law 111-11, the Loan 
Guarantee program that we have to do some infrastructure work. 
So, given that and given the condition of our aging 
infrastructure and some of the reviews that we are doing, we 
thought it best to plan ahead a little. We know we have these 
existing needs out there.
    With the $5 million that was provided in 2012 funds from 
the Appropriations Subcommittee, we easily saw that that amount 
was oversubscribed, quite frankly, and we had to go through a 
very systematic review process to prioritize the needs out 
there.
    With respect to the $7.3 we have for 2013, we anticipate 
using it for emergency situations. The Huntley irrigation 
district in Montana last year was one where flooding caused 
significant damage; and we did, out of our existing resources, 
do a loan program for them. So that is an example of something 
that came up suddenly.
    We are also doing an urban canals inspection program. This 
is based on infrastructure failure, canal failure we had in 
Nevada which did some damage. So, based on the urban canal 
inspection program, we are anticipating and we will----
    Mr. Frelinghuysen. These are urban Western canals.
    Mr. Connor. These are Reclamation canals.
    Mr. Frelinghuysen. That are old.
    Mr. Connor. That are old and over time communities have 
grown up around those canals. So they are the priority in the 
range of trying to prioritize our infrastructure needs, those 
that are in high-populated areas that can do most damage. We 
thought it prudent to really do a thorough review of those 
canals. We are going to have a report out later this year. We 
think that is going to identify some needs that we are going to 
have to address. That has also anticipated a use for this $7.3 
million fund.
    Mr. Frelinghuysen. So this is an initiative that is going 
to go on and on here or is this--what is it?
    See, one of the issues that we have a responsibility for is 
oversight. And, God only knows, you may have a crisis that 
develops and you need to address it, but we need to know what 
is going on, maybe a little better--more in the way of 
communication, specific details.
    Mr. Connor. Yes, and we will be providing more details as 
this program proceeds. We would be happy once the report is out 
on urban canals to identify those needs that we anticipate 
using this funding for and when we think over in the outyears 
beyond this we will have more information.
    Mr. Frelinghuysen. I wonder where it fits with your other 
plans. I mean, if these are bona fide crises or are these 
things that have been on the radar screen that just haven't 
been addressed as part of an overall historical maintenance 
process.
    Mr. Connor. It is both, but it is also an area where we see 
increasing demand.
    And now part of the $6 billion figure I gave you, we 
recently completed, in addition to the Urban Canals Program, a 
pretty thorough in-depth review of our infrastructure. And over 
a 5-year period--so this one marries up with the planning 
activity that you have identified, Mr. Chairman. Over a 5-year 
period, optimum investments for major rehabilitation are 
identified, I think, at $2.6 billion. Now, a lot of that you 
take--I think a billion of that is in the power sector, and 
that is going to be paid for by revenues that are made 
available from hydropower. So that is not a burden on our 
appropriations.
    Overall, and there are some other infrastructure needs that 
water and user communities will address. As Congressman Simpson 
mentioned, in Minidoka, they brought up-front money to pay for 
their fair share.
    So, overall, that $2.6 billion figure, for context, it used 
to be $3.1, if you have seen that figure before on aging 
infrastructure. This was a new, more thorough review that came 
up with the figure of $2.6 billion. We anticipate if you are 
going to do optimum investments, that out of the Federal 
appropriations area you would be taking about $1.3 billion to 
address that need. So we are obviously going to have to make 
some tough decisions there.
    Mr. Frelinghuysen. Hopefully, when you make those tough 
decisions and you make those priorities, if you would be good 
enough to share----
    Mr. Connor. Yes, absolutely.
    Mr. Frelinghuysen [continuing]. Share that information with 
us.
    Commissioner, we have heard that the Department of the 
Interior is considering putting forward a proposal to increase 
the royalty rate for oil produced on Federal lands. What 
impact, if any, would there be on the Reclamation Fund?
    Mr. Connor. That is probably one that I want to get into in 
the record, but, as you know--and the reason why I am 
hesitating is because I am not sure if it is 40 percent or 50 
percent of the royalties from public lands--the mineral 
royalties off public lands goes into the Reclamation Fund. It 
is either 40 or 50 percent. So that provides a context that any 
increase in royalties would obviously increase the Reclamation 
Fund, assuming the same level of oil and gas production.
    Mr. Frelinghuysen. So has the Department discussed whether 
the proposal would continue current laws as far as depositing a 
portion of the royalties in the Reclamation Fund, and has there 
been any discussion of anything other than the current law in 
relation to the fund?
    Mr. Connor. I am not aware of any discussions. I would like 
to get back to you on the record on that one.
    [The information follows:]

            Transcript Question From Chairman Frelinghuysen

    House Appropriations Energy and Water Development 
Subcommittee, 2013 Budget Hearing Transcript, Page 36
    Mr. Frelinghuysen. ``So has the Department discussed 
whether the proposal would continue current laws as far as 
depositing a portion of the royalties in the Reclamation Fund, 
and has there been any discussion of anything other than the 
current law in relation to the fund?''
    Answer. The proposal would continue current law with 
respect to the disposition of the royalties.

    Mr. Frelinghuysen. Okay. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    The President has announced a Veterans Job Corps 
initiative, including development of a Veterans Job Corps 
conservation program. Is the Bureau a participant in the 
initiative?
    Mr. Connor. The Bureau, we were looking at that, and we 
certainly think that we would have areas where we could be 
participating in that initiative.
    We have Youth Initiatives, and through that we have 
identified opportunities within our programs for some 
restoration work that needs to be done in association with some 
of our projects. We have gone to the Youth Conservation Corps 
the last couple of years and done very good work, at less cost 
than contracting out, quite frankly.
    We think there would be those same opportunities once this 
Veterans Job Corps conservation corps proposal would get up and 
going where we would certainly be looking at opportunities to 
participate to ensure that that program is as robust as 
possible. We think we have lots of opportunities.
    Mr. Visclosky. Can I ask you on that score and at this 
point you are in fiscal year 2012----
    Mr. Connor. Yes, sir.
    Mr. Visclosky [continuing]. And you are discussing next 
year's budget. The veterans that are coming back, many of whom 
are having a difficult time as far as employment in a very bad 
economy. It is starting to turn around, but it is very bad. Are 
there things you are looking to do this summer, this fall? 
Because next year is a year away from having a job if I am a 
veteran today who is unemployed.
    Mr. Connor. Right. I think there is a couple of things.
    Mr. Visclosky. And I realize this isn't your initiative. 
But, you know, there are a lot of the announcements that come 
out of the administration, God bless them. When is it going to 
happen?
    Mr. Connor. Right. We have pretty good statistics that I 
think we would like to provide regarding where we are in 
veterans hiring, because I think we are doing quite well in 
that area within the Department.
    Overall, I would say this is an area that we are trying to 
look strongly towards veteran youth in those Veterans' 
Preference programs. We understand that this is incredibly 
important for the administration, so we want to be full 
participants in that.
    Having said that, Reclamation, at the same time, we are 
fairly conservative in our hiring practices. You know, we 
reduced our workforce by almost 30 percent since 1990; and, 
since 2007, we reduced our workforce another 2.5 percent. We 
are basically at the lowest level employment-wise in the last 
20, 25 years, perhaps ever, other than when setting the agency 
up. So we have been very cautious with this idea that, one, we 
have improved our operations to be more efficient; and, two, we 
want to ensure that in these tight budget times that we are 
being prudent with our workforce.
    Mr. Visclosky. I appreciate your answer and that you are 
not overpromising. If you could for the record supply that. And 
I don't need a lot of information, and I realize it is not your 
initiative, but if there is no money for this initiative in 
your budget for 2013, that is fine. If you are part of it, when 
is this new initiative that the President talked about going to 
take hold for Reclamation? Understanding it is not yours.
    Mr. Frelinghuysen. Would the gentleman yield?
    I think all of us are supportive of that initiative. You 
have a lot of capable men and women coming back. And, you know, 
while we understand your employee levels have gone down, if 
there is a way to expedite, if you are doing any hiring, take a 
look at some of the remarkable people that have come back. And, 
obviously, they are well-trained and committed and eager to be 
employed.
    So don't wait for the President's initiative. And if you 
have done some good things in that regard, we commend you, but 
if you can provide us with that information it would be 
wonderful.
    Mr. Connor. Absolutely.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Connor. The one thing I was going to add is, we don't 
need separate money in our budget. When we have used something 
like the Veterans Job Corps, that was part of the proposal. We 
look at our program activities for work that we need to get 
done in association with our projects. And then we would look 
to employ funds out of those programs. So we don't need a 
separate line item or additional money. We are looking at our 
programs.
    Mr. Visclosky. On the Central Utah project, in 1992, 
legislation prohibited the Secretary of Interior from 
delegating responsibility to the Commissioner. In this year's 
budget proposal, there is a recommendation to repeal the 
prohibition, allowing Reclamation to take responsibility. Could 
you explain the decision and the purpose behind it, and how 
would the funding look in 2013 if it was approved? How would it 
change?
    Mr. Connor. The change was proposed primarily from our 
perspective, from a policy perspective. It makes sense to fold 
back the Central Utah project back within the Bureau of 
Reclamation, recognizing in 1992 there were a number of 
concerns about how Reclamation was administering costs or how 
it was spreading its overhead costs, et cetera. And there is 
concern that some money that was allocated for Central Utah was 
then being used for overhead on other projects.
    That is no longer the way we do business. So we think we 
have addressed a lot of those concerns that the money for any 
administrative costs comes out of specific projects. We don't 
move it around.
    Two, we think it is----
    Mr. Visclosky. There are other agencies that could learn 
from your experience.
    Mr. Connor. We like to be good examples. You can be 
examples in many ways. We want to be good examples.
    Mr. Visclosky. Go ahead.
    Mr. Connor. That was a situation where we have one water 
project in the Department of the Interior that is managed 
outside of the Bureau of Reclamation. So we think from a 
consistency standpoint and how we reallocate resources from 
program management, we think it makes sense, efficiency, 
economy, oversight to fold it back within Reclamation. Because 
we don't think it is going to impact the ability to get the 
Central Utah project work done.
    We are still going to use the Central Utah Water Project 
conservancy district to carry out the work the way they have 
been doing. We just think there is not going to be an impact to 
costs immediately by folding it in with Reclamation. We are not 
going to save a lot of money up front, but we are certainly not 
going to cost any additional resources. But maybe over time 
there are some efficiencies that will accrue from folding that 
particular project back in Reclamation. That is the basis for 
the proposal.
    Mr. Visclosky. And is there a budgetary impact? I am sorry.
    Mr. Connor. We don't believe there is a budgetary impact as 
far as the transition itself, that it will save us a whole lot 
of money or cost additional resources. So I think, overall, 
with respect to the budget request for that project, we are 
about $21 million versus $28 million last year. That was just 
part of our overall balancing of the available resources that 
we have within Reclamation, where some projects, you know, have 
gone up, some have gone down, in this 2013 request.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. On that subject, this is all about water 
delivery, right?
    Mr. Connor. Water delivery, and there is infrastructure--
new infrastructure development that is still part of that.
    Mr. Frelinghuysen. CUPCA.
    Mr. Connor. CUPCA activities. But there is also an 
environmental mitigation program that is an active part of 
that, too. I think it is almost about----
    Mr. Frelinghuysen. So if you were to take a bead on this, 
for the last how many years this project has been integral to 
our committee, we have been hearing--how many years have we 
been involved in this project, and how much money has been 
expended?
    Mr. Connor. I have that somewhere.
    Mr. Frelinghuysen. That is why Mr. Wolf is here. We 
wouldn't expect you, Mr. Connor, to have that figure, but I am 
sure Mr. Wolf represents institutional memory.
    Mr. Wolf. I don't have that off the top of my head. That 
has been a departmental program, but, to be honest, I haven't 
paid as close attention to it.
    Mr. Frelinghuysen. We don't mean to catch either of you 
short.
    Mr. Connor. I actually found it.
    Mr. Frelinghuysen. You did?
    Mr. Connor. So just the overall level of investment, pre-
CUPCA Federal funds that I have on this email that I have is 
about $1.37 billion. That was before CUPCA got converted in 
1992. Post that time, it is about $1.1 billion that has been 
invested.
    Mr. Frelinghuysen. I am surprised. I served on that 
committee for a long time. If you go back and you see the type 
of investments they have been making--and, of course, you talk 
about the decline in your personnel on the ground and all that, 
but, in reality, we have made some major investments here.
    Mr. Connor. Oh, absolutely.
    Mr. Frelinghuysen. That is sort of why I talked about the 
importance of prioritizing. And I know you migrated to a lot of 
environmental restoration projects, which in and of themselves 
may have some merit, but your traditional responsibilities are 
the ones that I think should be our primary focus.
    Mr. Simpson may get the last word. Do you have another 
compliment?
    Mr. Simpson. No, it is not a compliment this time. Just a 
couple of questions that are interesting because they 
potentially affect the Interior budget that I oversee.
    One of them is, you know, a lot of the recreational 
opportunities in the West are provided by the BOR at their 
facilities. The President has this new initiative, Great 
Outdoors Initiative, which I compliment him on. How does that 
affect your budget, and is there anything in your budget that 
deals with the Great Outdoors Initiative?
    Mr. Connor. Well, with respect to the Great Outdoor 
Initiative, we look at a couple of areas that we think will fit 
into the America's Great Outdoors Initiative, particularly from 
Secretary Salazar's perspective. One of the areas he has 
focused on is a priority that is an outgrowth of the AGO River 
Restoration. So what I think--impact to our budget? No, other 
than the fact that I think we are now looking for opportunities 
to build off of things that we are already doing.
    For instance, with San Joaquin River Restoration, we have 
placed a priority on that program, and we are providing funds, 
and that restoration effort is very visible. So the communities 
around the Fresno, California, area, there has certainly been 
some urgency and some support from them to try and marry up 
some of their initiatives as they go out and try and get local 
and State funding and even some Federal funding for trails 
associated with it.
    There has been some combination and coordination going on 
between our program and those other activities because we view 
it as part of an overall community support effort. We are not 
expending additional resources and association, but we are 
trying to partner up.
    Mr. Simpson. Would you reprioritize any of your projects 
because they may have a higher priority under the auspices of 
America's Great Outdoors? Or is it other entities saying, the 
BOR is doing this here. We can also partner up with them, and--
--
    Mr. Connor. I think there might be some aspects to 
America's Great Outdoors where we might focus more. I think the 
middle Rio Grande in New Mexico is one where we have got a very 
active collaborative program. We have got an ESA program that 
we have got to be supportive of so that we can keep maintaining 
the project operations. That is one where we have looked at 
other opportunities, maybe even within our budget in outyears 
of trying to be supportive of the administration's efforts. 
Platte River is another one where I think it is part of the AGO 
initiative, and so that has been an area that we want to ensure 
that we maintain our funding level consistent with the way the 
program was designed.
    Mr. Simpson. Okay.
    Mr. Connor. So it does affect the priorities.
    Mr. Simpson. It is a consideration.
    Mr. Connor. It is a consideration, yes, sir.
    Mr. Simpson. Secondly, Indian water rights settlements. You 
have got money in your budget for the Indian water rights 
settlements. Do we project those out very far? Do we know what 
we are going to be spending on Indian water rights settlements? 
And we have got a number of settlements that are probably 
coming close to being completed. Do we have a projection of how 
long we are going to be spending money on these settlement 
agreements, and----
    Mr. Connor. Yes, we do. And I have got that, just to give 
you a perspective from the Bureau of Reclamation. We obviously 
have a very large role in a lot of the settlements that have 
been negotiated and been enacted as of late. And so this 
doesn't include the Bureau of Indian Affairs role, which also 
they have a significant role.
    So, right now, overall, if you take particularly what I am 
focused on is four settlements that were passed in 2010, the 
Claims Resolution Act, plus the Navajo San Juan Settlement that 
was in the 2009 Public Law 111-11. We have got overall in the 
neighborhood of $1.7 billion of identified need out there right 
now.
    Over the next, I think that is probably over about a 15-
year period, maybe a little less than that. The Claims 
Resolution Act provided resources, mandatory funds available as 
part of that process. So just take the Claims Resolution Act. 
We have gotten about $445 million for Reclamation activities 
versus about $690 million in need.
    So we have got a good start, but it is still going to have 
some impact on our discretionary budget. You add in Navajo San 
Juan, that is another billion dollars overall over that 15-year 
period. There is $180 million available for Navajo San Juan 
right now. That was provided in the Claims Resolution Act, 
also.
    And so we are getting a good start, but this is one of 
those areas when you look out into the long-term planning we 
are going to have some significant budget considerations when 
you get out to 2015, 2016, and 2017.
    Public Law 111-11 also provided some mandatory funds to 
implement. So once we hit in the 2020 time frame, we have 
access again to mandatory funds to the tune of about $120 
million per year over a 10-year----
    Mr. Simpson. So we are going to see a spike in--
potentially, anyway--in 2016, 2017, 2018----
    Mr. Connor. If we are going to maintain schedule with 
respect to implementation, we are going to have to look for 
some additional resources in that particular area. And that is 
one of those areas right now that we are trying to deal with 
and plan for.
    Mr. Simpson. Thank you.
    Mr. Frelinghuysen. I would like to thank Chairman Simpson 
for his questions, observations.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    On the Klamath Basin agreement, apparently, in 2010 an 
agreement was reached, but the Secretary has not yet signed the 
agreement. Does the administration support it? And, if so, will 
they be a signatory soon?
    Mr. Connor. Two agreements were signed in February, 2010. 
One was the Klamath Hydropower Settlement Agreement, which 
initiated the process to do a Secretarial Determination on 
whether the four dams and the private dams in the Klamath River 
Basin should be removed. And that included the owners of the 
dam and then a lot of interested entities. The State of 
California--and I should say, actually, the Klamath Hydro 
Settlement Agreement was just four entities. The Federal 
Government did sign that agreement because we were supportive 
of doing the analysis and studies to look at dam removal. 
Interfor Pacific, the owner of the facilities, and the State of 
Oregon and the State of California.
    Klamath Basin Restoration Agreement, KBRA, was also signed, 
and that is the one that you referred to that the Federal 
Government has not signed, and that is a Restoration Program.
    Mr. Visclosky. When you say it was signed, but the Federal 
Government hasn't signed it, what do you mean?
    Mr. Connor. There is an agreement in place amongst a number 
of stakeholders, something to the tune of 40 different 
stakeholder entities.
    Mr. Visclosky. Stakeholders.
    Mr. Connor [continuing]. In the KBRA.
    Mr. Visclosky. Did the Federal Government sign the power--
--
    Mr. Connor. Yes, the Klamath Hydropower Settlement 
Agreement. Yes.
    Mr. Visclosky. So they are signatory to that one but not to 
the multiple party agreement on the restoration.
    Mr. Connor. Correct. And the reason for that is the range 
of activities in the KBRA, the Klamath Basin Restoration 
Agreement, we think requires new authority. So we don't think 
currently that to commit to all of the activities contemplated 
in the KBRA that we have the authority to sign those 
agreements, because we would need new authority from Congress 
to do so.
    Mr. Visclosky. Has the administration requested that 
authority?
    Mr. Connor. The administration has not requested that 
authority. There have been bills introduced in both the House 
and the Senate that would provide that authority.
    The Klamath Hydropower Settlement Agreement just addresses 
the analysis that needs to be done and lays out the process for 
the Secretary to make a determination on whether or not it is 
in the public interest and whether it will further fisheries 
restoration to remove those four dams on the Klamath River. But 
to actually make the determination itself also requires 
congressional authority.
    Mr. Visclosky. But you proceed essentially with the 
examination. You don't need new authority?
    Mr. Connor. That is correct.
    Mr. Visclosky. But you need new authority for the 
restoration?
    Mr. Connor. For the restoration and for the Secretary to 
make the actual determination on whether the dam should be 
removed.
    Mr. Visclosky. And the legislation--has the administration 
taken a position on the legislation? Does the legislation 
address the need? Or is there a difference of opinion?
    Mr. Connor. The legislation I believe would authorize the 
Secretary to make the decision; and if the decision is that the 
dam should be removed, then it would authorize those 
activities.
    Mr. Visclosky. I am sorry. On the restoration projects.
    Mr. Connor. Just the legislation itself, which actually 
addresses part of the Hydropower Settlement Agreement and the 
KBRA.
    Mr. Visclosky. To proceed with the hydro.
    Mr. Connor. To proceed if the determination is made. But it 
would authorize the determination. We have not yet testified on 
either of those bills, sir.
    Mr. Visclosky. So the administration has not taken a 
position?
    Mr. Connor. That is correct.
    Mr. Visclosky. The agreement was in 2010. I guess one of 
the frustrations I just have generally with the Federal 
Government, and not specifically this instance, but this 
instance is--as I describe it, we won World War II in 4 years. 
We have an agreement here on a very complex issue, obviously, 
that is 2 years old, and we have to wait on the authority. Why?
    Mr. Connor. Well, I can't speak to waiting on the 
authority, but I can say that the----
    Mr. Visclosky. Well, you have asked for money.
    Mr. Connor. The determination process, it has taken 2 
years, and that is actually fairly quick for the level of 
analysis that we have done in that 2-year period.
    Fifty studies on fishery restoration, looking at dam 
removal have been completed in that time. A draft EIS has been 
put out that is still--the comment period has ended where we 
have not done a final environmental impact statement. We have 
done an overview report pulling those studies together that was 
released about a couple months ago. We have done peer review on 
that. We have done a financial economic analysis associated 
with the process to look under the 1983 principles and 
guidelines, the cost-benefit, the national economic 
determination analysis. So there has been a huge amount of 
activity in the 2 years to provide the information available to 
move forward on the decision.
    Mr. Visclosky. Do you anticipate lawsuits being filed? Or 
are they not germane until you have authority to proceed?
    Mr. Connor. I would think that they would not be germane 
until decisions are reached.
    Mr. Visclosky. They have not been filed to date?
    Mr. Connor. None have been filed to date. But, to be 
honest, lawsuits have been threatened, certainly.
    Mr. Visclosky. Right. And you have $7 million in your 
request to begin doing some things that you believe you have 
authority for.
    Mr. Connor. That is correct. Under existing reclamation 
authority, which is general, the 1902 Reclamation Act and our 
authorities to plan and run our projects, and we have the 
Klamath project, as well as I think it was the Klamath Water 
Supply Enhancement Act in 2000 which authorized specific 
activities to try and improve the water supply reliability and 
power supply reliability situation in the Klamath Basin, we 
have authority to move forward with three areas that we are 
doing in particular.
    We are developing an On-Project Water Plan which is 
consistent with the KBRA, but we have got authority in those 
existing statutes that I mentioned. We are looking at trying to 
address the power sustainability issues needed in the basin.
    One of the reasons there is a need for the KBRA is those 
four hydropower projects used to provide power for the Klamath 
project water users and the non-project water users in the 
basin, the agricultural entities, through a public utilities 
State-based process that I am not really that familiar with. 
That power at a reduced rate is no longer available. So there 
is a huge need to address power sustainability issues in the 
region. We have authority to work with the project water users 
on that particular point.
    Then we are also working, as part of our ESA programs, we 
have got competing endangered species in Upper Klamath Lake who 
rely on water in the lake and then we have endangered species 
Salmon, who require more water in the river. We are trying to 
ensure that we make the right balance, acquire water supplies 
to address those needs from the ESA perspective, which is part 
of what we are doing.
    Whether or not the dams in the Klamath River Basin are 
removed, it is imperative that for the long-term sustainability 
of that project, of those water users, of those species, of 
addressing Tribal needs which are critical in the Klamath 
Basin, we have to do those programs. Absolutely.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Just one question. Do you interact or work side by side--I 
think you mentioned the Army Corps. Are they among the 
stakeholders in some of these projects?
    Mr. Connor. Absolutely.
    Mr. Frelinghuysen. How would you characterize your working 
relationship? Is there cost sharing on some of these projects? 
Could you give us a rundown on that?
    Mr. Connor. Sure. I would characterize our working 
relationship as very good and getting better. We are partnering 
up on infrastructure projects like the Folsom, the joint 
Federal project.
    Mr. Frelinghuysen. You mentioned that, yes.
    Mr. Connor. In basins all over the West from an operations 
perspective we are really integrated with the Corps of 
Engineers. The Columbia River Basin is a perfect example, the 
Rio Grande River Basin, particularly in New Mexico, where they 
have facilities in the Pecos and the Upper Rio Grande. We have 
a combined water operations model which we use to guide 
operations on both projects.
    Lower Yellowstone is a perfect example Bob just handed me 
where they have outstanding ESA issues on the Missouri River. 
They are working with some of our facilities in improving fish 
passage and putting fish screens and funding those efforts on 
our facilities that will help them address their recovery 
program needs on the Missouri River Basin.
    So, from an operations standpoint, ESA investments in 
infrastructure I think we are doing well.
    We are now looking at--you know, we have similar 
programmatic needs where we are both trying to assess----
    Mr. Frelinghuysen. Programmatic, and I assume the Army 
Corps, like you, need necessary appropriations.
    Mr. Connor. Yes. Absolutely.
    Mr. Frelinghuysen. So do you look at side by sides?
    Mr. Connor. We have looked side by side. Particularly with 
some of our funding we had an initiative in this last budget 
cycle where we tried to coordinate our budget requests 
associated with the Bay Delta set of issues.
    When I say kind of programmatic, I am thinking things like 
risk management. They have got dams. We have got dams. We 
shouldn't have two different ways of assessing risks on our 
dams, and we shouldn't----
    Mr. Frelinghuysen. Sometimes there is a military way.
    Mr. Connor. There is. Absolutely. But what we are trying to 
do is look for opportunities now in that programmatic area, 
whether it be that or even the same approach we are taking on 
trying to assess the impact of climate change on water 
resources that were very coordinated in using the same studies, 
same analysis, trying to get some efficiencies between both 
organizations.
    Mr. Frelinghuysen. Thank you for that clarification.
    There are a lot of questions for the record; and, as I said 
in the beginning, if you can get those to us in due course, we 
would appreciate it.
    Anything else for the record?
    Mr. Visclosky. I am fine. Thank you.
    Mr. Frelinghuysen. Thank you very much, Commissioner.
    Mr. Wolf, thank you very much for your testimony.
    We stand adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Connor, Michael..................................................   275
Darcy, Jo-Ellen..................................................     1
Temple, Major General Merdith ``Bo''.............................     1
Wolf, Robert.....................................................   275




</pre></body></html>
